No. 21-____
IN THE

Supreme Court of the United States
————
MONTGOMERY COUNTY,
MARYLAND,
Petitioner,

v.

YASMIN REYAZUDDIN,
————

Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Fourth Circuit
————
PETITION FOR A WRIT OF CERTIORARI
————
MARC P. HANSEN
County Attorney
JOHN P. MARKOVS
Deputy County Attorney
EDWARD B. LATTNER
Chief Division of Government Operations
PATRICIA LISEHORA KANE
Chief Division of Litigation
ERIN J. ASHBARRY
Associate County Attorney
Counsel of Record
OFFICE OF THE COUNTY ATTORNEY FOR
MONTGOMERY COUNTY, MARYLAND
Executive Office Building
101 Monroe Street, Third Floor
Rockville, Maryland 20850
(240) 777-6700
erin.ashbarry@montgomerycountymd.gov
August 26, 2021
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D. C. 20002

QUESTION PRESENTED
Whether a plaintiff who obtains no judicial relief is
a “prevailing party” entitled to attorney’s fees.

(i)

ii
RULE 29.6 DISCLOSURE STATEMENT
Montgomery County, Maryland, is a Charter county
and a political subdivision of the State of Maryland. As
a governmental entity, it has no parent corporation
and does not issue stock.

iii
DIRECTLY RELATED PROCEEDINGS
United States District Courts (District of Maryland):
A) Yasmin Reyazuddin v. Montgomery County,
Maryland, No. DKC 11-0951, September 9, 2019
B) Yasmin Reyazuddin v. Montgomery County,
Maryland, No. DKC 11-0951, August 21, 2017
C) Yasmin Reyazuddin v. Montgomery County,
Maryland, No. DKC 11-0951, March 20, 2014
United States Courts of Appeals (Fourth Circuit):
A) Yasmin Reyazuddin v. Montgomery County,
Maryland, No. 19-2144, February 24, 2021
B) Yasmin Reyazuddin v. Montgomery County,
Maryland, No. 17-2013, November 21, 2018
C) Yasmin Reyazuddin v. Montgomery County,
Maryland, No. 14-1299, June 15, 2015

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ...............................

i

PARTIES TO THE PROCEEDING ....................

ii

RULE 26.9 DISCLOSURE STATEMENT .........

iii

TABLE OF AUTHORITIES ................................

ix

OPINIONS BELOW ............................................

1

JURISDICTION ..................................................

1

STATUTORY PROVISIONS INVOLVED ..........

2

INTRODUCTION ................................................

2

STATEMENT ......................................................

4

A. Reyazuddin’s Rehabilitation Act Claim And
Failed Request For Damages .....................

4

B. Reyazuddin’s Failed Requests For Equitable Relief ..................................................

7

C. Reyazuddin’s Request For Attorney’s Fees..

9

REASONS FOR GRANTING THE PETITION..

10

I. THE FOURTH CIRCUIT’S HOLDING
CREATES A CIRCUIT SPLIT .................

10

II. THE FOURTH CIRCUIT’S DECISION
CONFLICTS WITH BUCKHANNON
AND RESUSCITATES THE CATALYST
THEORY ...................................................

15

(v)

vi
TABLE OF CONTENTS—Continued
Page
III. THE FOURTH CIRCUIT’S DECISION
WILL CHILL ATTEMPTS TO COMPLY
WITH THE LAW WHILE LITIGATION
IS PENDING AND WILL INVITE A
“SECOND LITIGATION” INTO THE
SUBJECTIVE REASONS FOR A
DEFENDANT’S
EXTRA-JUDICIAL
CHANGE IN BEHAVIOR. .......................

20

CONCLUSION ....................................................

23

APPENDIX
APPENDIX A: Opinion of the United
States Court of Appeals for the Fourth
Circuit in Reyazuddin v. Montgomery
County, Maryland, 988 F.3d 794, dated
February 24, 2021 ..........................................

1a

APPENDIX B: Judgment of the United
States Court of Appeals for the Fourth
Circuit in Reyazuddin v. Montgomery
County, Maryland, No. 8:11-0951-DKC,
dated August 5, 2021 .....................................

10a

APPENDIX C: Order of the United States
District Court for the District of Maryland
in Reyazuddin v. Montgomery County,
Maryland, No. DKC 11-0951, dated
September 19, 2019 ........................................

11a

vii
TABLE OF CONTENTS—Continued
Page
APPENDIX D: Memorandum Opinion of
the United States District Court for the
District of Maryland in Reyazuddin v.
Montgomery County, Maryland, No. DKC
11-0951, 2019 U.S. Dist. LEXIS 161174,
dated September 19, 2019 .............................

12a

APPENDIX E: Opinion of the United States
Court of Appeals for the Fourth Circuit
in Reyazuddin v. Montgomery County,
Maryland, 754 Fed. Appx. 186, dated
November 21, 2018 .........................................

18a

APPENDIX F: Memorandum Opinion of
the United States District Court for the
District of Maryland in Reyazuddin v.
Montgomery County, Maryland, No. DKC
11-0951, 276 F. Supp. 3d 462, dated August
21, 2017...........................................................

32a

APPENDIX G: Order of Judgment of the
United States District Court for the District
of Maryland in Reyazuddin v. Montgomery
County, Maryland, No. DKC 11-0951, dated
August 21, 2017 ..............................................

68a

APPENDIX H: Order of the United States
Court of Appeals for the Fourth Circuit
Denying Petition for Rehearing En Banc
in Reyazuddin v. Montgomery County,
Maryland, No. 8:11-0951-DKC, dated March
29, 2021...........................................................

71a

viii
TABLE OF CONTENTS—Continued
Page
APPENDIX I: Verdict Sheet from Reyazuddin
v. Montgomery County, Maryland, No. DKC
11-0951, United States District Court for the
District of Maryland, dated February 26,
2016 ................................................................

72a

ix
TABLE OF AUTHORITIES
CASES

Page(s)

Bonner v. Guccione,
178 F.3d 581 (2nd Cir. 1999) ....................

13

Buckhannon Bd. & Care Home, Inc. v.
W. Va. Dep’t of Health & Human Res.,
532 U.S. 598 (2001) ..................................passim
Burlington v. Dague, 505 U.S. 557 (1992) ...

22

Canup v. Chipman-Union, Inc.,
123 F. 3d 1440 (11th Cir. 1997) ................

13

Carbalan v. Vaughn,
760 F.2d 662 (5th Cir. 1995) .....................

14

Caruthers v. P&G Mfg. Co.,
Nos. 99-3318 & 98-3035, 998 U.S. App.
LEXIS 24847 (10th Cir. Oct. 6, 1998) ......

12

Farrar v. Hobby,
506 U.S. 103 (1992) ............................. 10, 11, 16
Hannah P. v. Coats,
916 F.3d 327 (4th Cir. 2019) .....................

20

Harvey-Williams v. Peters,
Nos. 95-4272 & 95-4354, 1997 U.S. App.
LEXIS 17735 (6th Cir. July 10, 1997) ......

13

Hewitt v. Helms,
482 U.S. 755 (1987) ...................................

11

Initiative and Referendum Inst. v.
U.S. Postal Service,
794 F.3d 21 (D.C. Cir. 2015) .....................

14

Lefemine v. Wideman,
568 U.S. 1 (2015) ....................................... 10, 11

x
TABLE OF AUTHORITIES—Continued
Page(s)
Marek v. Chesny,
473 U.S. 1 (1985) .......................................

20

Mounson v. Moore,
117 Fed. Appx. 461 (7th Cir. 2004) .......... 12, 13
Nance v. Maxwell Fed. Credit Union,
186 F.3d 1338 (11th Cir. 1999) .................

13

Parham v. Southwestern Bell Tel. Co.,
433 F.2d 421 (8th Cir. 1970) ..................... 17, 18
Reyazuddin v. Montgomery Cnty., Md.,
7 F. Supp. 3d 526 (D. Md. 2014) ...............

5

Reyazuddin v. Montgomery Cnty., Md.,
789 F.3d 407 (4th Cir. 2015) .....................

5

Rhodes v. Stewart,
488 U.S. 1 (1998) .......................................

11

Robinson v. City of St. Charles, Mo.,
972 F.2d 974 (8th Cir. 1992) .....................

13

Ruckelshaus v. Sierra Club,
463 U.S. 680 (1983) ...................................

20

Salvatori v. Westinghouse Electric Corp.,
190 F.3d 1244 (11th Cir. 1999) .................

13

Sole v. Wyner,
551 U.S. 74 (2007) ..................................... 11, 16
Tunison v. Continental Airlines Corp.,
162 F.3d 1187 (D.C. Cir. 1998) .................

12

Walker v. Anderson Elec. Contractors,
944 F.2d 841 (11th Cir. 1991) ...................

14

xi
TABLE OF AUTHORITIES—Continued
Page(s)
Warren v. Fanning,
950 F.2d 1370 (8th Cir. 1991) ................... 13-14
STATUTES:
28 U.S.C. § 1254(l) ........................................

1

29 U.S.C. § 794a(b) .......................................

2, 9

42 U.S.C. § 1983 ...........................................

13

REGULATIONS:
29 C.F.R. § 1630.2(o)(3) ................................

20

PETITION FOR A WRIT OF CERTIORARI
Montgomery County, Maryland, respectfully petitions for a writ of certiorari to review an important
judgment of the United States Court of Appeals for
the Fourth Circuit which redefined “prevailing party”
in a manner that creates a circuit split and conflicts
with decisions of this Court.
OPINIONS BELOW
The Fourth Circuit’s opinion is reported at 988 F.3d
794. App. 1a-9a. The decision of the United States
District Court for the District of Maryland is reported
at 2019 U.S. Dist. LEXIS 161174, 2019 WL 4536505
(D. Md. Sept. 19, 2019). App. 12a-17a.
JURISDICTION
The Fourth Circuit entered judgment on February
24, 2021, and denied a timely petition for panel rehearing en banc on March 29, 2021.* App. 10a; 71a. On
March 19, 2020, this Court extended the deadline to
file petitions for writs of certiorari to 150 days from the
date of the lower court judgment or order denying
rehearing. This Court’s jurisdiction is invoked under
28 U.S.C. § 1254(1).

*

The case captions for the Fourth Circuit’s opinion, judgment,
and order denying rehearing en banc omitted the fact that the
International Municipal Lawyers Association (IMLA) filed an
amicus brief in support of the County. Upon notice of the omission, the Fourth Circuit amended the captions of those documents
to include IMLA as an amicus in support of the County on August
5, 2021, and August 9, 2021. (ECF Nos. 419-422). As the Fourth
Circuit’s revisions changed only the case caption, the operative
dates for jurisdictional analysis remain the judgment entered by
the Fourth Circuit on February 24, 2021, and the order denying
the petition for rehearing en banc on March 29, 2021.

2
STATUTORY PROVISIONS INVOLVED
The fee-shifting provision of the Rehabilitation Act
provides, “In any action or proceeding to enforce or
charge a violation of a provision of this title, the court,
in its discretion, may allow the prevailing party, other
than the United States, a reasonable attorney’s fee as
part of the costs.” 29 U.S.C. § 794a(b).
INTRODUCTION
Respondent Yasmin Reyazuddin, the plaintiff in
this Rehabilitation Act case, obtained none of the
judicial relief she sought against the petitioner and
defendant below, Montgomery County. The jury
awarded her no monetary damages; the trial court
denied her requests for a preliminary and permanent
injunction; and the trial court denied her request for a
declaratory judgment. When the trial court entered
judgment, the County was not ordered to do anything
at all.
Despite respondent’s lack of any enforceable judgment, the Fourth Circuit held she is a “prevailing party”
for purposes of seeking reimbursement of her attorney’s
fees. “Prevailing party” is a legal term of art in numerous federal statutes that allows for departure from
the “American Rule” (where each side must pay its
own attorney fees) and permits a “prevailing party” to
seek recovery of its attorney’s fees. Ignoring respondent’s lack of any enforceable judgment, the Fourth
Circuit focused erroneously on two factors that are
not relevant in the prevailing party analysis, thereby
redefining the term and creating a circuit split.
First, the Fourth Circuit relied on the fact that the
jury found the County had discriminated, even though
the jury awarded Reyazuddin no damages. This Court,
however, has made clear that a judicial finding that

3
a defendant violated the law, with no enforceable
relief, does not render a plaintiff a prevailing party. To
that end, all other federal appellate courts presented
with a jury finding of liability, but no damages or
other judicial relief, found the plaintiff was not a
prevailing party. The Fourth Circuit’s holding that
respondent “prevailed” despite obtaining no damages
or other judicial relief departs from this Court’s jurisprudence and creates a circuit split.
Second, the Fourth Circuit relied on the fact that the
County, in its continuing efforts to accommodate, voluntarily changed respondent’s employment circumstances while this litigation was pending. The Fourth
Circuit cited this voluntary accommodation to comply
with the law as a “capitulation” that effected the relief
respondent sought and provided grounds to award
her prevailing-party status. The Fourth Circuit’s
holding conflicts with this Court’s clear mandate in
Buckhannon, which held that a defendant’s voluntary,
extra-judicial change – even if it effects the relief
sought in plaintiff’s complaint – lacks the necessary
judicial imprimatur to crown plaintiff a prevailing
party. In so holding, Buckhannon resolved a circuit
split and rejected the then-prevalent “catalyst theory”
of recovery, under which a plaintiff could be deemed a
prevailing party if her complaint was the catalyst for
the defendant’s extra-judicial change and effectively
provided plaintiff the relief she sought in her
complaint. Buckhannon expressly rejected the catalyst
theory, making clear that a plaintiff must have an
enforceable judgment against the defendant to attain
prevailing-party status and that a voluntary, extrajudicial change by a defendant does not render
a plaintiff a prevailing party.

4
This Court should grant certiorari and reverse the
decision of the Fourth Circuit because the decision is
inconsistent with other federal appellate decisions, is
contrary to Buckhannon, and would resuscitate the
rejected catalyst theory for recovery of attorney fees,
thereby re-opening the circuit split resolved by
Buckhannon.
This decision should also not be allowed to stand
because of the chilling effect it will have upon
defendants’ good-faith efforts to comply with the law
to monitor and modify a plaintiff’s accommodation
while litigation is pending. Defendants nationwide
will be deterred from implementing accommodations
or otherwise taking steps in good faith to comply with
the law for fear of conceding the plaintiff’s prevailingparty status.
This Court should grant certiorari to reverse the
Fourth Circuit’s decision and re-affirm that an enforceable judgment is necessary for a plaintiff to become a
“prevailing party.”
STATEMENT
A. Reyazuddin’s Rehabilitation Act Claim And
Failed Request For Damages
Respondent Reyazuddin is a visually impaired
County employee. App. 3a; App. 12a. For years,
Reyazuddin answered the phones for a County department, fielding calls from County residents. App. 3a;
App. 12a. The County provided her with assistive
technology to interact with County information
systems so she could do her work. App. 20a.
In 2008, the County decided to consolidate all call
takers from its various executive branch departments into one customer service location, known as

5
“MC 311.” App. 3a; App. 20a. The County implemented Oracle’s Siebel software for MC 311 call takers
to input data about calls received, route them to
departments for resolution, and track their status.
App. 3a; App. 39a. Although the consolidation swept
up Reyazuddin’s department, the County did not
transfer Reyazuddin to MC 311 because Siebel was
not compatible with the assistive technology used by
Reyazuddin. App. 3a; App. 12a-13a. The County
viewed the cost to customize Siebel to communicate
with Reyazuddin’s assistive technology as unreasonably high, so the County instead made two attempts to
accommodate Reyazuddin by offering her two different, alternative positions within her existing department. App. 20a-21a; App. 33a-34a.
Reyazuddin accepted one of the offered positions.
App. 20a-21a. She nevertheless later filed this action
in April 2011 against the County, alleging discrimination under the Rehabilitation Act.1 App. 4a; App.
13a; App. 33a-34a; The complaint sought compensatory damages, a declaratory judgment that the
County violated the law, and an injunction ordering
the County to transfer her to MC 311 as a call taker,
or “Customer Service Representative,” and to make
Siebel accessible to her. App. 5a; App. 27a; App. 30a;
App. 34a; App. 36a; App. 46a.
The District Court set the case for a jury trial in
February 2016. App. 68a. Meanwhile, the County
1

Plaintiff amended her complaint to include a claim under the
Americans with Disabilities Act. App. 68a. The District Court
granted the County summary judgment on both counts. App. 68a;
Reyazuddin v. Montgomery Cnty., Md., 7 F. Supp. 3d 526 (D. Md.
2014). The Fourth Circuit reversed as to the Rehabilitation Act
count only. App. 68a; Reyazuddin v. Montgomery Cnty., Md., 789
F. 3d 407 (4th Cir. 2015). The ADA claim is not at issue here.

6
continued its attempts to accommodate Reyazuddin.
In October 2015, approximately five months before
the jury trial, the County offered her a collaborative
position with a non-profit, the Columbia Lighthouse
for the Blind, which the County would fund. App. 4a;
App. 21a; App. 34a-35a; (ECF No. 300-2). Reyazuddin
declined that proposed accommodation, and her case
proceeded to trial. App. 4a; App. 21a; App. 35a-36a.
The jury was asked to consider whether the County
violated the Rehabilitation Act, and if so, what compensatory damages to award. App. 34a; App. 68a-69a.
Reyazuddin asked the jury to award her damages for
emotional distress only. App. 5a n.2. She argued an
appropriate amount would be $129,000, which she
claimed was the cost to the County to make Siebel
accessible to her. (ECF No. 404). She did not ask for
nominal damages. App. 5a n.2. The parties agreed if
the jury found that the County did not discriminate or
that the County proved its affirmative defense of
undue hardship with respect to plaintiff’s requested
modifications to the Siebel software, the case would be
over. (ECF No. 143). If the jury found merit to the
plaintiff’s discrimination claim, then the matter would
proceed to a second hearing so the court could
determine whether plaintiff was entitled to any
declaratory or injunctive relief. (ECF No. 143).
At trial, the jury never heard about the County’s
third attempt in October 2015 to accommodate
Reyazuddin because she limited her claim for compensatory damages to the time period ending the month
before the County offered this accommodation. App.
34a-35a. With evidence of only two accommodation
attempts, the jury found that the County discriminated against Reyazuddin. App. 21a; App. 34a-35a,
72a-74a. But the jury rejected Reyazuddin’s request

7
for damages, awarding $0 in compensatory damages.
App. 74a.
B. Reyazuddin’s
Failed
Equitable Relief

Requests

For

After the $0 jury verdict, Reyazuddin moved for
entry of a declaratory judgment, a preliminary injunction, and permanent injunction. App. 5; App. 34a; App.
36a. After a May 2016 hearing, the District Court
denied preliminary injunctive relief due to the lack of
evidence as to whether the County’s third accommodation attempt was reasonable and as to the
current state of Reyazuddin’s employment. App. 5a;
App. 35a. Reyazuddin requested and the District Court
agreed that discovery was necessary before the court
could schedule an evidentiary hearing to consider
Reyazuddin’s request for a declaratory judgment and
a permanent injunction. (ECF Nos. 228, 241).
In October 2016, during the discovery period for
the pending evidentiary hearing, the County made a
fourth attempt to accommodate Reyazuddin. App. 5a;
App. 21a; App. 34a-35a. The County voluntarily transferred Reyazuddin to MC 311 to answer calls for
services administered by her former department and
created and incorporated a new piece of assistive
technology – an internet-based software program
known as the Internal Web Accessibility Accommodation (IWAA). App. 22a; App. 35a; App. 41a-46a.
Reyazuddin was able to perform her position at MC
311 in full with this new accommodation, but
Reyazuddin was still dissatisfied: she wanted the
County to modify the Siebel software so she could
access it directly. App. 36a. Further, because other
MC 311 Customer Service Representatives answered
calls for all departments instead of just one, she
claimed the accommodation to answer calls as a Cus-

8
tomer Service Representative only for her former
department was an insufficient accommodation. App.
36a; App. 53a. She chose to pursue her requests for
injunctive and declaratory relief. App. 35a-36a.
After a seven-day evidentiary hearing in April
2017, the District Court in August 2017 issued a
Memorandum Opinion that found the County’s fourth
and last accommodation sufficient. App.32a-67a. The
District Court found the jury verdict of discrimination
in February 2016 did not establish any ongoing harm
because the jury had not considered the County’s
third and fourth accommodations or Reyazuddin’s new
position and duties at MC 311. App. 47a-48a. Further,
the District Court found that the County’s various
accommodation attempts over the years reflected an
ongoing, “bona fide” attempt by the County to abide
by the law, App. 63a, and that the County’s fourth
accommodation was reasonable and provided her
with meaningful work. App. 56a-64a. Concluding that
the County had accommodated Reyazuddin fully as
required by law, the District Court entered an Order
of Judgment on August 21, 2017, that denied
Reyazuddin’s requests for declaratory and injunctive
relief, and entered judgment in favor of Reyazuddin
and against the County for $0. App. 68a-70a.
On Reyazuddin’s appeal, a three-judge panel of the
Fourth Circuit unanimously affirmed the District
Court’s opinion and order denying Reyazuddin’s
request for equitable relief. App. 18a-31a. The Fourth
Circuit held that the jury verdict did not mandate an
award of injunctive relief, that the District Court did
not abuse its discretion in denying an injunction, and
that the District Court did not abuse its discretion in
denying declaratory relief, stating expressly that
the jury verdict was of “limited relevance” in light of

9
Reyazuddin’s new position. App. 28a-29a; App. 27a30a; App. 30a. As the Fourth Circuit affirmed in full,
its decision did not direct the District Court or the
parties to take any further action. App. 31a.
C. Reyazuddin’s Request For Attorney’s Fees
Although the judgment gave Reyazuddin no enforceable relief against the County, she sought attorney’s
fees before the District Court. App. 12a. Under the
“American Rule,” parties in civil actions are not normally entitled to attorney’s fees, but a court may
award attorney’s fees if a statute authorizes the court
to do so. See Buckhannon Bd. & Care Home, Inc. v. W.
Va. Dep’t of Health & Human Res., 532 U.S. 598, 602
(2001). Here, Reyazuddin sought attorney’s fees under
the Rehabilitation Act, which provides that a court
may in its discretion allow the “prevailing party” a
reasonable attorney’s fee along with other costs. See 29
U.S.C. § 794a(b). The parties by consent briefed only
the question of whether Reyazuddin was a “prevailing party” under the law. App. 6a. Consistent with
Buckhannon, the District Court found Reyazuddin’s
judgment “cannot be characterized as an enforceable
one sufficient to make her a prevailing party,” App.
14a, as there was “no ‘court-ordered change in the
legal relationship between the plaintiff and the
defendant.’” App. 16a (quoting Buckhannon, 532 U.S.
at 604).
Reyazuddin appealed the District Court’s finding
that she is not a prevailing party. App. 3a. On February
24, 2021, a three-judge panel of the Fourth Circuit
reversed and remanded. App. 1a-9a. Abandoning
completely its prior stance that the jury verdict was
of limited relevance with respect to her claim for
equitable relief, the Fourth Circuit found that
Reyazuddin is a prevailing party “because she proved

10
her claim to a jury before the County capitulated by
transferring her to MC 311.” App. 9a. The Fourth
Circuit wrote that refusing Reyazuddin attorney’s
fees would be “unjust” because the County’s “timely
capitulation rendered unnecessary equitable relief
that Reyazuddin would otherwise have been entitled
to.” App. 9a (emphasis added).
The Fourth Circuit denied rehearing en banc, App.
71a, and this petition followed.
REASONS FOR GRANTING THE PETITION
I. THE FOURTH CIRCUIT’S
CREATES A CIRCUIT SPLIT.

HOLDING

The Fourth Circuit’s decision creates a circuit split
on the question of whether a plaintiff who obtains a
jury finding that the defendant violated the law, but
obtains no judicially enforceable relief, is a “prevailing party” for purposes of fee-shifting statutes. In
particular, the Fourth Circuit’s decision conflicts with
eight other Circuits that have held a plaintiff who
obtains no judicial relief – even where a jury found a
violation of the law – is not a prevailing party.2 These
other Circuits correctly applied this Court’s prevailingparty analysis, and the Fourth Circuit should be
reversed.
This Court’s prevailing-party analysis instructs that
a plaintiff prevails if “actual relief on the merits of his
claim materially alters the legal relationship between
the parties by modifying the defendant’s behavior in a
way that directly benefits the plaintiff.” Farrar v.
Hobby, 506 U.S. 103, 111-12 (1992); see also Lefemine
2

The term “prevailing party” is a legal term of art and interpreted consistently by courts regardless of the statute in which it
appears. See Buckhannon, 532 U.S. at 603 n.4.

11
v. Wideman, 568 U.S. 1, 4 (2015). The degree of alteration is not significant: an award of nominal damages
– even just one dollar – is sufficient to effectuate the
required alteration between the parties. See Farrar,
506 U.S. at 113 (a judgment for any amount, even
nominal, “modifies the defendant’s behavior for the
plaintiff’s benefit by forcing the defendant to pay an
amount of money he otherwise would not pay”). In
addition to a monetary damages award, a permanent
injunction alters the parties’ relationship and
affords a plaintiff prevailing-party status. Lefemine v.
Wideman, 568 U.S. 1, 4 (2015). Cf. Sole v. Wyner, 551
U.S. 74, 78 (2007) (holding a plaintiff is not a prevailing party if she obtains a preliminary injunction but
later loses her claim for permanent injunctive relief).
The material alteration must directly benefit plaintiff at the time of judgment; otherwise, the judgment
cannot be said to modify the defendant’s behavior. See
Farrar, 506 U.S. at 111. A judicial pronouncement of
a violation of the law – absent some favorable award
for the plaintiff to enforce – is not a material alteration
and is insufficient to render a plaintiff a prevailing
party. See Farrar, 506 U.S. at 113 (“[a] judicial pronouncement that the defendant has violated the
Constitution, unaccompanied by an enforceable judgment on the merits, does not render the plaintiff a
prevailing party” (citing Hewitt v. Helms, 482 U.S.
755, 762 (1987)). To that end, a declaratory judgment
constitutes relief for purposes of prevailing-party
status “[i]f, and only if, it affects the behavior of the
defendant toward the plaintiff.” Rhodes v. Stewart,
488 U.S. 1, 4 (1998).
Federal circuit courts applying these tenets have
held — in direct contrast with the Fourth Circuit’s
decision in this case — that a plaintiff who does not

12
obtain enforceable judicial relief is not a prevailing
party, even if the jury finds that the defendant
violated the law.
For example, a plaintiff with a jury finding of discrimination but no judicial relief was not a prevailing
party in Caruthers v. P&G Mfg. Co., Nos. 99-3318 &
98-3035, 1998 U.S. App. LEXIS 24847 (10th Cir. Oct.
6, 1998). In Caruthers, a jury found that the defendant
discriminated under the ADA, but awarded the plaintiff no damages, and the trial court denied equitable
relief. See Caruthers, 1998 U.S. App. LEXIS 24847, at
*2, *9. The Tenth Circuit held that a pronouncement
that the law was violated, but with no enforceable
judgment, does not render plaintiff a prevailing
party. Id. at *8. The court observed the plaintiff could
show no alteration in the parties’ legal relationship,
and that “[m]oral satisfaction . . . cannot bestow prevailing party status.” Id. at *8.
Similarly, in Tunison v. Continental Airlines Corp.,
162 F.3d 1187 (D.C. Cir. 1998), the court held a jury
finding of a violation of Air Carrier Access Act, but
awarding no damages, did not render plaintiff a
prevailing party. See Tunison, 162 F.3d at 1190.
The court stated that a declaration of a violation of
the law with no damages award is an “empty judgment . . . [which] carries no real relief and thus does
not entitle the judgment winner to be treated as a
prevailing party.” Id. at 1190. As “a judgment with no
damages at all is not an ‘enforceable judgment,’”
plaintiff was not a prevailing party. Id. at 1190.
These courts are in the majority with other circuit
courts who hold that a jury verdict that the law was
violated, with no other judicial relief, is not sufficient
to render the plaintiff a prevailing party. See Mounson
v. Moore, 117 Fed. Appx. 461, 462 (7th Cir. 2004)

13
(vacating attorney’s fee award where plaintiff received
“only a jury determination” that defendants violated
his constitutional rights but awarded him no damages; plaintiff was not a prevailing party as he had
nothing to enforce); Salvatori v. Westinghouse Electric
Corp., 190 F.3d 1244, 1245 (11th Cir. 1999) (plaintiff
not a prevailing party on Age Discrimination in Employment Act (ADEA) claim where jury found defendant
discriminated but awarded plaintiff no damages);
Nance v. Maxwell Fed. Credit Union, 186 F.3d 1338,
1342-43 (11th Cir. 1999) (after court vacated jury’s
damages award on appeal, ADEA plaintiff was not a
prevailing party as plaintiff had no judgment to
enforce despite jury finding of discrimination against
plaintiff); Bonner v. Guccione, 178 F.3d 581, 594 (2nd
Cir. 1999) (plaintiff was not a prevailing party under
Title VII where jury found sexual harassment but
awarded no damages); Canup v. Chipman-Union, Inc.,
123 F. 3d 1440, 1442-43 (11th Cir. 1997) (despite jury
finding in Title VII mixed-motive case that race was a
factor in plaintiff’s termination, jury also found
defendant employer would have terminated plaintiff
even had it not taken race into account, and plaintiff
was not a prevailing party as he failed to obtain any
damages or relief); Harvey-Williams v. Peters, Nos. 954272 & 95-4354, 1997 U.S. App. LEXIS 17735, *9 (6th
Cir. July 10, 1997) (affirming denial of attorney’s fees
to plaintiff under Title VII following a zero-damages
jury verdict as legal relationship between parties did
not change and there was no judgment to enforce);
Robinson v. City of St. Charles, Mo., 972 F.2d 974, 976
(8th Cir. 1992) (plaintiff was not a prevailing party
under 42 U.S.C. § 1983 where jury found excessive use
of force by police but awarded zero damages as the
verdict did not change legal relationship between
parties and was only a “technical victory”); Warren v.

14
Fanning, 950 F.2d 1370, 1374-75 (8th Cir. 1991) (a
jury finding of Eighth Amendment violation but
refusing to award plaintiff any damages was a
“Pyrrhic victory” that did not entitle plaintiff to prevailing party status); Walker v. Anderson Elec. Contractors, 944 F.2d 841, 847 (11th Cir. 1991) (plaintiff
was not a prevailing party under Title VII despite jury
finding of sexual harassment because jury awarded no
damages and jury verdict did not affect the behavior of
defendant toward the plaintiff); Carbalan v. Vaughn,
760 F.2d 662, 666 (5th Cir. 1985) (plaintiff was not a
prevailing party where jury found violation of
Constitutional prohibition against unreasonable bail
but awarded plaintiff no damages).3
Reyazuddin’s jury verdict entitled her to enforce
nothing, and she obtained no equitable relief. Under
other circuits’ precedent, she would not have been
deemed a “prevailing party” entitled to attorney’s
fees. The Fourth Circuit’s decision is not consistent
3

Although not involving a jury verdict, the D.C. Circuit
recently considered a “close” question as to whether a plaintiff
was a prevailing party in Initiative and Referendum Institute v.
U.S. Postal Service, 794 F.3d 21, 22 (D.C. Cir. 2015). In that case,
the Court held a party may achieve “prevailing party” status by
winning a remand that makes a substantive victory inevitable,
thereby effecting the required court-ordered change in the parties’ legal relationship. Id. at 25. Here, in contrast, Reyazuddin
never obtained an appellate court remand for relief akin to a
decision on the question of injunctive relief. Rather, the district
court’s denial of injunctive relief was affirmed. Moreover, unlike
Initiative, the verdict did not mandate any equitable relief. To the
contrary, Reyazuddin agreed after the verdict that discovery and
a separate proceeding were necessary on her request for equitable
relief, and a bench trial was held for 7 days to determine what if
any equitable relief was appropriate. The Fourth Circuit affirmed
in full the denial of that relief, and there was no remand upon
which Reyazuddin could expect a substantive victory.

15
with other federal appellate courts or this Court’s
precedent. This Court should grant certiorari to
resolve this circuit split.
II. THE FOURTH CIRCUIT’S DECISION
CONFLICTS WITH BUCKHANNON AND
RESUSCITATES
THE
CATALYST
THEORY.
In addition to creating a circuit court split as to
whether an enforceable judgment is a necessary
prerequisite to prevailing party status, the Fourth
Circuit’s decision conflicts with Buckhannon and
resuscitates the catalyst theory that Buckhannon
rejected.
In Buckhannon, a plaintiff nursing home corporation challenged a West Virginia state law that
required residents to be capable of “self-preservation,”
or to self-evacuate, in the event of an emergency. See
Buckhannon, 532 U.S. at 600. In response to ceaseand-desist orders requiring closure of its nursing
home facilities, plaintiff challenged the law under the
ADA and the Fair Housing Act. See id. at 600-01. After
plaintiff filed suit, West Virginia eliminated the “selfpreservation” requirement and successfully moved for
dismissal of the case as moot. See id. at 601. As
plaintiff obtained no judicial relief, the trial court
and the Fourth Circuit found the plaintiff was not a
prevailing party entitled to attorney’s fees. See id. at
601-02. This holding departed from the majority of
other federal circuits at the time, which then followed the “catalyst theory,” under which a plaintiff
could be a prevailing party if a defendant voluntarily
changed its conduct to effectuate the relief plaintiff
sought in the litigation. See id. at 602 n.3, 605.

16
The Buckhannon court rejected the catalyst theory,
affirming the denial of attorney’s fees and holding that
a defendant’s voluntary, extra-judicial change in
conduct could not render a plaintiff a prevailing party.
“[A] defendant’s voluntary change in conduct,
although perhaps accomplishing what the plaintiff
sought to achieve by the lawsuit, lacks the necessary
judicial imprimatur on the change.” Id. at 605.
Buckhannon listed “enforceable judgments on
the merits” or “settlement agreements enforced through
a consent decree” as having that necessary judicial
imprimatur. Id. at 604-05. In contrast, Buckhannon
made clear that a private settlement agreement lacking the judicial approval and oversight provided by a
consent decree does not make plaintiff a prevailing
party. See id. at 604 n.7; see also Farrar, 506 U.S. at
113.4 The Court emphasized that it had never
“awarded attorney’s fees for a nonjudicial alteration
of actual circumstances.” Buckhannon, 532 U.S. at 606
(quotation marks omitted). Thus, the appropriate test
to determine whether a plaintiff is a prevailing party
is whether there has been a “material alteration of the
legal relationship of the parties” and there is a
“judicial imprimatur on the change.” Id. at 603-05;
see also Sole v. Wyner, 551 U.S. 74, 81 (2007) (material alteration is the “touchstone” of prevailing party
status).
4

As Chief Justice Rehnquist noted in his opinion for the Court,
“[f]ederal jurisdiction to enforce a private contractual settlement
will often be lacking unless the terms of the agreement are
incorporated into the order of dismissal.” Buckhannon, 532 U.S.
at 604 n.7. This limited the Farrar Court’s broader declaration
that, “[n]o material alteration of the legal relationship between
the parties occurs until the plaintiff becomes entitled to enforce
a judgment, consent decree, or settlement against the defendant.”
Farrar, 506 U.S. at 113 (emphasis added).

17
The Fourth Circuit’s decision in this case resuscitates the catalyst theory: it relies erroneously upon the
County’s voluntary, extra-judicial accommodation of
Reyazuddin as proof that she obtained “relief.” This is
not the correct standard enunciated in Buckhannon,
which requires an enforceable judgment.
After ten years of litigation, Reyazuddin has no
enforceable judgment. The jury trial resulted in
nothing for Reyazuddin to enforce. The evidentiary
hearing for declaratory and injunctive relief resulted
in nothing for Reyazuddin to enforce. The District
Court combined the $0 jury verdict and the denial of
declaratory and equitable relief into one Order of
Judgment that required the County to take no action
whatsoever and affected no change in the legal relationship between Reyazuddin and the County. App.
68a-70a. The District Court’s decision was affirmed in
full by the Fourth Circuit and contained no directive
for the County to change its behavior towards the
plaintiff in any way. App. 31a; App. 68a-70a. With no
enforceable judgment, Reyazuddin is not a prevailing
party.
Rather than following Buckhannon, the Fourth
Circuit relied on Parham v. Southwestern Bell Telephone Company, 433 F.2d 421 (8th Cir. 1970). See App.
7a-9a. But Parham does not support conferring prevailing party status to Reyazuddin.
The trial court in Parham denied a class action
request for injunctive relief against the defendant
employer, finding that any discriminatory hiring
practices in violation of Title VII were mitigated by
the employer’s new affirmative-action hiring policy.
See Parham, 433 F.2d at 422, 425. The Eighth Circuit
disagreed, finding a violation proven by statistical
evidence of discriminatory hiring practices. See id. at

18
426. On remand, the Eighth Circuit did not order
entry of injunctive relief, but did instruct the district
court to retain jurisdiction of the case to continue to
judicially supervise the defendant’s compliance with
its new policies. See id. at 429 (“[w]e remand the case
to the district court with directions to retain jurisdiction over the matter for a reasonable period of time to
insure the continued implementation of the appellee’s
[affirmative action policy]”).
Contrary to the Fourth Circuit’s analysis, the
Buckhannon Court specifically held that Parham
“does not support a theory of fee shifting untethered
to a material alteration in the legal relationship of
the parties.” Buckhannon, 532 U.S. at 607 n.9. Rather,
the Court explained that the trial court’s retention of
jurisdiction in Parham to monitor defendant’s compliance meant the case was not over: if the defendant
failed to continue to implement its EEO policies,
injunctive relief could be entered by the trial court. See
id. As Justice Scalia’s separate opinion explained, the
court’s retention of jurisdiction in Parham was significant for prevailing-party purposes because it meant
that the “finding [of discrimination] could be given
effect, in the form of injunctive relief, should the
defendant ever backslide in its voluntary provision of
relief to the plaintiffs.” Id. at 616-17 n.3 (Scalia, J.,
concurring).
Here, in contrast, the Fourth Circuit affirmed the
District Court’s denial of injunctive relief. App. 31a.
The Fourth Circuit did not reverse denial of injunctive relief or remand with instructions to retain
jurisdiction over the County to monitor its elimination of discrimination. App. 31a. To address this
discrepancy with Parham, the Fourth Circuit stated
that Reyazuddin could “[r]einvoke the district court’s

19
jurisdiction simply by filing a new lawsuit.” App. 8a
n.4. But Reyazuddin’s ability to file a future lawsuit
does not represent success in this suit — i.e., the suit
for which Reyazuddin seeks fees — by any objective
measure. Any litigant who fails to obtain relief can try
again, to the extent principles of res judicata allow.
But the “prevailing party” exception to the American
Rule applies only to that limited group of plaintiffs
who obtain a “material alteration in the legal relationship of the parties.” Buckhannon, 532 U.S. at 604
(quotation marks omitted). The Fourth Circuit’s analysis upends the American Rule by finding that
Reyazuddin’s mere ability to try again, after all her
requests for judicial relief were rejected, entitles her
to prevailing party status. A new lawsuit — even if not
precluded, and even if successful on the merits —
would not give Reyazuddin any judicially enforceable
relief in this case.
Reyazuddin obtained no monetary, declaratory, or
equitable relief at any phase of this litigation. The
jury’s finding of discrimination completed just one
phase of this case, and it was a pyrrhic victory
that yielded no relief. Buckhannon dictates that
Reyazuddin’s lack of any judicial relief by the end of
her litigation means she is not a prevailing party. The
County’s ongoing, good-faith efforts to accommodate
her visual impairment do not alter that analysis. This
Court should grant certiorari to prevent the Fourth
Circuit’s decision from sowing confusion as to whether
the catalyst theory is an acceptable basis to award
prevailing party status.

20
III. THE FOURTH CIRCUIT’S DECISION
WILL CHILL ATTEMPTS TO COMPLY
WITH THE LAW WHILE LITIGATION IS
PENDING AND WILL INVITE A “SECOND
LITIGATION” INTO THE SUBJECTIVE
REASONS FOR A DEFENDANT’S EXTRAJUDICIAL CHANGE IN BEHAVIOR.
The question presented in this petition is important
and recurring. Numerous federal statutes use the
phrase “prevailing party” as the standard by which
attorney’s fees may be awarded. See Buckhannon, 532
U.S. at 600; Marek v. Chesny, 473 U.S. 1, 43-51 (1985)
(appendix to opinion of Brennan, J., dissenting)
(listing over 100 federal statutes that authorize courts
to award attorney’s fees, including various civil rights
laws, the Voting Rights Act, the Lanham Act, the
Copyright Act, and the Equal Access to Justice Act);
Ruckelshaus v. Sierra Club, 463 U.S. 680, 684 (1983)
(observing more than 150 federal statutory feeshifting provisions, applying “prevailing party,” “substantially prevailing party,” or “successful” as standard to award). The Fourth Circuit’s decision will
impact application of the prevailing party standard
beyond this Rehabilitation Act case.
Moreover, the Fourth Circuit’s analysis will deter
defendants from engaging in the interactive process
required to accommodate plaintiffs with disabilities
under the Rehabilitation Act.5 Employers will be
5

The Rehabilitation Act requires an interactive process
between an employer and an individual with a disability to
identify potential reasonable accommodations that could overcome the precise limitations of the disability. See Hannah P. v.
Coats, 916 F.3d 327, 337 (4th Cir. 2019); 29 C.F.R. § 1630.2(o)(3)
(“to determine the appropriate reasonable accommodation it may
be necessary for the covered entity to initiate an informal,

21
concerned that any such accommodation or change in
a plaintiff’s employment circumstances could be
grounds for a court to label the change a “capitulation,” declare plaintiff a prevailing party, and award
attorney’s fees. Indeed, this disincentive for defendants to change conduct during litigation to avoid
threat of assessment of attorney’s fees was a significant reason for Buckhannon’s rejection of the catalyst
theory in the first place.6
Here, the Fourth Circuit’s decision that the fourth
accommodation was a “capitulation,” is particularly
troubling and chilling as the fourth accommodation
provided only a part of the relief Reyazuddin sought.
It did not provide her with direct access to Siebel or
the ability to answer calls for multiple departments.
Reyazuddin was so dissatisfied with the fourth
accommodation that she continued to pursue her
claims for declaratory and injunctive relief. If an
employer’s willingness to provide an accommodation
which includes a part of what an employee seeks
during litigation is construed as a capitulation,
employers will be wary of offering any accommodations remotely or potentially related to a plaintiff’s
request for fear of having to pay her attorney fees.
In addition to the deterrent effect of the Fourth
Circuit’s analysis, Buckhannon also warned against
the possibility of a “second litigation” into a defendant’s subjective motivation for its change in conduct
interactive process with the individual with a disability in need
of the accommodation”).
6

See Buckhannon, 532 U.S. at 608 (observing that the catalyst theory creates disincentive for defendant to change conduct,
which may not be illegal, during litigation to avoid threat of
assessment of attorney’s fees).

22
as “not a formula for ‘ready administrability’ by
district courts.” Buckhannon, 532 U.S. at 609 (quoting
Burlington v. Dague, 505 U.S. 557, 566 (1992)). The
Fourth Circuit’s analysis in this case does precisely
that for future litigants. It invites a second investigation, through discovery and fact-finding hearings, as
to the nature of and motivations for a defendant’s
extra-judicial change, to determine whether the
change should be considered a “capitulation” caused
by the lawsuit, even if that change was made in good
faith to comply with the law. See Buckhannon, 505
U.S. at 609.
In this case, for example, even if the County’s subjective motivation was appropriate for the Court to
review, and based upon Buckhannon it is not, the record is clear that the County made three prior attempts
to accommodate Reyazuddin before the successful
fourth accommodation. Both the District Court and
the Fourth Circuit found that these prior attempts to
accommodate demonstrated the County’s ongoing,
“bona fide” and “good faith” efforts to comply with the
law, remedy any past discrimination, and prevent its
recurrence. App. 29a; App. 63a. Yet the Fourth Circuit’s prevailing party analysis determined – inconsistently with its own prior ruling – that the last
accommodation was a “capitulation” because of this
litigation. If the Fourth Circuit’s “capitulation” standard is permitted to stand, it will spawn countless,
similar proceedings to investigate the purpose, timing,
and scope of a defendant’s change in conduct.
The specter of the chilling effect upon defendants’
compliance with the law to accommodate while
litigation is pending, and the potential for ongoing
“second litigations” clogging the courts, justifies this

23
Court’s review and reversal of the Fourth Circuit’s
opinion.
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
MARC P. HANSEN
County Attorney
JOHN P. MARKOVS
Deputy County Attorney
EDWARD B. LATTNER
Chief Division of Government Operations
PATRICIA LISEHORA KANE
Chief Division of Litigation
ERIN J. ASHBARRY
Associate County Attorney
Counsel of Record
OFFICE OF THE COUNTY ATTORNEY FOR
MONTGOMERY COUNTY, MARYLAND
Executive Office Building
101 Monroe Street, Third Floor
Rockville, Maryland 20850
(240) 777-6700
erin.ashbarry@montgomerycountymd.gov
August 26, 2021

APPENDIX

1a
APPENDIX A
PUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
————
No. 19-2144
————
YASMIN REYAZUDDIN
Plaintiff-Appellant,
v.
MONTGOMERY COUNTY, MARYLAND,
Defendant-Appellee.
THE DISABILITY LAW CENTER OF VIRGINIA;
DISABILITY RIGHTS MARYLAND; DISABILITY RIGHTS
OF WEST VIRGINIA; PROTECTION AND ADVOCACY FOR
PEOPLE WITH DISABILITIES, INC. OF SOUTH CAROLINA;
DISABILITY RIGHTS NORTH CAROLINA,
Amici Supporting Appellant.
INTERNATIONAL MUNICIPAL LAWYERS ASSOCIATION,
Amici Supporting Appellee.
————
Appeal from the United States District Court
for the District of Maryland, at Greenbelt.
Deborah K. Chasanow, Senior District Judge.
(8:11-cv-00951-DKC)
————

2a
Argued: December 8, 2020
Decided: February 24, 2021
Before DIAZ, THACKER, and HARRIS, Circuit
Judges.
————
Vacated and remanded by published opinion. Judge
Diaz wrote the opinion, in which Judge Thacker and
Judge Harris joined.
————
ARGUED: Kevin Douglas Docherty, BROWN
GOLDSTEIN & LEVY, LLP, Baltimore, Maryland,
for Appellant. Patricia Lisehora Kane, OFFICE OF
THE COUNTY ATTORNEY, Rockville, Maryland, for
Appellee. ON BRIEF: Joseph B. Espo, BROWN
GOLDSTEIN & LEVY, LLP, Baltimore, Maryland;
Timothy Elder, Albert Elia, TRE LEGAL PRACTICE,
Fremont, California, for Appellant. Marc P. Hansen,
County Attorney, John P. Markovs, Deputy County
Attorney, Edward B. Lattner, Chief, Division of Human
Resources and Appeals, Patricia Victoria Haggerty,
Associate County Attorney, Erin J. Ashbarry, Associate
County Attorney, OFFICE OF THE COUNTY ATTORNEY, Rockville, Maryland, for Appellee. Steven
M. Traubert, Zachary Devore, Kalena C. M. Ek,
disABILITY LAW CENTER OF VIRGINIA, Richmond,
Virginia, for Amici The disAbility Law Center of
Virginia, Disability Rights Maryland, Disability
Rights of West Virginia, Protection and Advocacy for
People with Disabilities, Inc. of South Carolina, and
Disability Rights North Carolina.
————

3a
DIAZ, Circuit Judge:
Yasmin Reyazuddin appeals the district court’s
order denying her motion seeking to recover reasonable attorney’s fees, costs, and expenses from
Montgomery County, Maryland. The district court
held that Reyazuddin isn’t eligible for such an award
because she’s not a “prevailing party” under 29 U.S.C.
§ 794a(b). Because we disagree, we vacate the order
and remand for further proceedings.
I.
A.
This case stems from Montgomery County’s failure
to reasonably accommodate Reyazuddin’s disability
(she is blind).1 In 2009, the County consolidated its
customer service employees into a single county-wide
call center, referred to as “MC 311.” At the time,
Reyazuddin worked as a customer service representative in the County’s health and human services
department. When the new call center opened, the
County didn’t transfer Reyazuddin along with her
colleagues because the software the County used at
the center wasn’t accessible to blind people. Instead,
Reyazuddin was offered (and worked) several alternate jobs for the County. But she wanted to resume
her customer service position at MC 311.

1

For additional background, see this court’s opinions in
Reyazuddin’s first and second appeals. Reyazuddin v.
Montgomery Cnty., 789 F.3d 407, 410–13 (4th Cir. 2015)
(“Reyazuddin I”); Reyazuddin v. Montgomery Cnty., 754 Fed.
Appx. 186, 188–89 (4th Cir. 2018) (“Reyazuddin II”).

4a
B.
Reyazuddin sued the County, alleging that it failed
to provide a reasonable accommodation for her disability. She brought claims under the Rehabilitation
Act and the Americans with Disabilities Act (the
“ADA”), seeking declaratory and injunctive relief as
well as compensatory damages. The district court
granted summary judgment to the County. In
Reyazuddin I, we affirmed the district court’s judgment with respect to Reyazuddin’s ADA claim but
remanded her Rehabilitation Act claim for trial.
A few months before trial, the County offered
Reyazuddin a job at the Columbia Lighthouse for
the Blind. Reyazuddin declined. The jury didn’t hear
about this job offer, as discovery closed before the
County made the offer and Reyazuddin opted to
confine her evidence at trial to events that occurred
prior to receiving it.
The jury found that the County discriminated
against Reyazuddin in violation of the Rehabilitation
Act. Specifically, the jury found that (1) Reyazuddin
is an individual with a disability; (2) the County
had notice of Reyazuddin’s disability; (3) Reyazuddin
could perform the essential functions of a customer
service representative with a reasonable accommodation either within or outside of MC 311; (4) the
County failed to provide a reasonable accommodation;
(5) the County’s failure to transfer Reyazuddin to
MC 311 was an adverse employment action; and
(6) it wasn’t an undue hardship for the County to make

5a
MC 311 accessible for Reyazuddin. However, the jury
awarded Reyazuddin $0 in compensatory damages.2
After trial, Reyazuddin moved for an order requiring
the County to make MC 311 accessible and to transfer
her there. The district court determined that it needed
more information regarding what it would take for
the County to upgrade MC 311’s software and whether
the Columbia Lighthouse for the Blind job offer
constituted a reasonable accommodation such that the
County wouldn’t be required to transfer Reyazuddin to
MC 311. Thus, the court denied Reyazuddin preliminary injunctive relief and ordered discovery on her
equitable claims.
While discovery was ongoing, the County finally
transferred Reyazuddin to MC 311. Reyazuddin modified her request for injunctive relief and, after a
two-week evidentiary hearing, the district court
found that the County had reasonably accommodated
Reyazuddin and that its past discrimination was
isolated and unlikely to recur. Thus, the district court
denied Reyazuddin injunctive relief. It also declined
to issue a declaratory judgment because doing so would
have been superfluous to the jury’s verdict. Finally,
the court entered judgment in favor of Reyazuddin
and against the County for her Rehabilitation Act
claim “in the amount of $0.00 in compensatory damages.” J.A. 131. We affirmed the district court’s judgment in Reyazuddin II.
Shortly thereafter, Reyazuddin moved for an award
of reasonable attorney’s fees, costs, and expenses.
The district court subsequently granted a joint motion
by the parties to bifurcate briefing for the court
2

Reyazuddin sought damages only for emotional distress. She
didn’t request economic or nominal damages.

6a
to determine two relevant questions separately:
(1) whether Reyazuddin is a “prevailing party” (making her eligible for such an award) and, if she is,
(2) how much the court should award Reyazuddin.
After the parties briefed the first question, the
district court held that Reyazuddin isn’t a “prevailing
party” and denied Reyazuddin’s motion on that basis.
Reyazuddin timely appealed.
II.
The sole issue before us is whether Reyazuddin is
a “prevailing party” under the Rehabilitation Act. The
Act provides that “[i]n any action or proceeding to
enforce or charge a violation” of a relevant provision,
the district court, “in its discretion, may allow the
prevailing party, other than the United States, a
reasonable attorney’s fee as part of the costs.” 29
U.S.C. § 794a(b).
The term “prevailing party” is a legal term of art
that we interpret consistently across all federal feeshifting statutes. Smyth ex rel. Smyth v. Rivero, 282
F.3d 268, 274 (4th Cir. 2002). We review de novo a
district court’s determination of whether someone is
a “prevailing party.” McAfee v. Boczar, 738 F.3d 81,
87–88 (4th Cir. 2013), as amended (Jan. 23, 2014).
Here, Reyazuddin won a jury verdict that found
the County liable for discrimination and entitled
Reyazuddin to equitable relief—at least until the
County capitulated by transferring her to MC 311. The
district court nonetheless concluded that Reyazuddin
isn’t a prevailing party because she didn’t obtain an
“enforceable judgment” that materially altered the
legal relationship between herself and the County.
J.A. 139–143 (citing Farrar v. Hobby, 506 U.S. 103

7a
(1992); Hewitt v. Helms, 482 U.S. 755 (1987)). Thus,
the court reasoned that Reyazuddin is simply
advancing the “catalyst theory” that the Supreme
Court expressly rejected in Buckhannon Bd. & Care
Home v. W. Va. Dep’t of Health & Human Res., 532
U.S. 598 (2001). We disagree.
To begin, Farrar, Hewitt, and Buckhannon each
involved very different facts than those at issue here.
In Farrar, the Supreme Court considered “whether a
civil rights plaintiff who receives a nominal damages
award is a ‘prevailing party’ eligible to receive attorney’s fees” and answered in the affirmative. 506 U.S.
at 105. The Hewitt Court considered “whether a party
who litigates to judgment and loses on all of his claims
can nonetheless be a ‘prevailing party’ for purposes
of an award of attorney’s fees” and answered in
the negative. 482 U.S. at 757, 759–60. And the
Buckhannon Court considered “whether th[e] term
[‘prevailing party’] includes a party that has failed
to secure a judgment on the merits or a court-ordered
consent decree, but has nonetheless achieved the
desired result because the lawsuit brought about a
voluntary change in the defendant’s conduct.” 532 U.S.
at 600. The Court again answered in the negative.3 Id.
We think this case is more like Parham v.
Southwestern Bell Telephone Co., 433 F.2d 421 (8th
Cir. 1970). In fact, we think Reyazuddin is even more
of a “prevailing party” than the Parham plaintiff was.
There, the plaintiff didn’t prove his claim at trial;
rather, in reversing the district court’s dismissal in
3

The County also cites our decision in McAfee. But there,
neither party disputed that the plaintiff was a prevailing party,
as he had obtained both a jury verdict and a damages award.
McAfee, 738 F.3d at 88.

8a
part, the Eighth Circuit “h[e]ld as a matter of law” that
the defendant company had discriminated against
black Americans in violation of Title VII. Parham, 433
F.2d at 427. But the court also affirmed the district
court’s denial of injunctive relief due to changes the
company made to its hiring practices after the plaintiff
sued. Id. at 429. Nonetheless, our sister circuit reasoned that the plaintiff’s “lawsuit acted as a catalyst
which prompted” the company to change its behavior
and determined that the plaintiff had “prevailed in his
contentions of racial discrimination against blacks
generally” such that he was entitled to reasonable
attorney’s fees.4 Id. at 429–30.
Despite this language, the Buckhannon majority
expressly approved of the Parham decision, distinguishing it from the “catalyst theory” cases that
Buckhannon overruled. 532 U.S. at 607 n.9. And
Justice Scalia elaborated on that approval in disputing
the dissent’s suggestion that the majority’s opinion
“approves the practice of denying attorney’s fees to a
plaintiff with a proven claim of discrimination, simply
because the very merit of his claim led the defendant
to capitulate before judgment.” Id. at 616 (Scalia, J.,
concurring). “To the contrary,” Justice Scalia clarified,
“the Court approves the result in [Parham], where

4

The Parham court also ordered the district court to “retain
jurisdiction over the matter for a reasonable period of time to
insure the continued implementation of the [defendant company’s] policy of equal employment opportunities.” Id. at 429. But
we don’t think the mere threat of future injunctive relief (via
retained jurisdiction) was any more of an “enforceable judgment”
than Reyazuddin’s jury verdict and subsequent judgment in her
favor. If the County were to return to its discriminatory ways,
Reyazuddin could reinvoke the district court’s jurisdiction simply
by filing a new lawsuit.

9a
attorney’s fees were awarded after a finding that the
defendant had acted unlawfully.” Id. (cleaned up).
This reasoning supports our holding here.
Reyazuddin isn’t a prevailing party because she catalyzed the County to change its behavior by filing a
lawsuit; rather, she’s a prevailing party because she
proved her claim to a jury before the County capitulated by transferring her to MC 311. And that transfer
was key to the district court’s subsequent finding that
the County reasonably accommodated Reyazuddin
and, thus, the court’s ultimate denial of Reyazuddin’s
request for equitable relief.
We note that our holding today is narrow. Had the
County transferred Reyazuddin to MC 311 before
she proved that its refusal to do so amounted to
discrimination, this would be a classic catalyst theory
case. Likewise, had Reyazuddin sought only damages
against the County, her failure to obtain any would
mean she wasn’t a prevailing party. But it would be
unjust to hold that Reyazuddin didn’t prevail simply
because the County’s timely capitulation rendered
unnecessary equitable relief that Reyazuddin would
have otherwise been entitled to.5
* * *
Accordingly, we vacate the district court’s order
denying Reyazuddin’s motion and remand for further
proceedings consistent with this opinion.
VACATED AND REMANDED

5

We express no opinion on what amount (if any) Reyazuddin
is entitled to in attorney’s fees. That question is for the district
court to determine in the first instance.

10a
APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
[Filed: August 5, 2021]
————
No. 19-2144
(8:11-cv-00951-DKC)
————
YASMIN REYAZUDDIN
Plaintiff-Appellant
v.
MONTGOMERY COUNTY, MARYLAND
Defendant-Appellee
THE DISABILITY LAW CENTER OF VIRGINIA;
DISABILITY RIGHTS MARYLAND; DISABILITY RIGHTS
OF WEST VIRGINIA; PROTECTION AND ADVOCACY FOR
PEOPLE WITH DISABILITIES, INC. OF SOUTH CAROLINA;
DISABILITY RIGHTS NORTH CAROLINA
Amici Supporting Appellant
INTERNATIONAL MUNICIPAL LAWYERS ASSOCIATION
Amicus Supporting Appellee
————
JUDGMENT
In accordance with the decision of this court, the
district court order entered September 19, 2019, is
vacated. This case is remanded to the district court
for further proceedings consistent with the court's
decision.
This judgment shall take effect upon issuance of this
court’s mandate in accordance with Fed. R. App. P. 41.
/s/ PATRICIA S. CONNOR, CLERK

11a
APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND
[Filed September 19, 2019]
————
Civil Action No. DKC 11-0951
————
YASMIN REYAZUDDIN
v.
MONTGOMERY COUNTY, MARYLAND
————
ORDER
For the reasons stated in the foregoing Memorandum Opinion, it is this 19th day of September, 2019,
by the United States District Court for the District
of Maryland, ORDERED that:
1. Plaintiff’s motion for a finding that she is
entitled to an award of reasonable attorneys’ fees,
costs, and expenses (ECF No. 403) BE, and the same
hereby IS, DENIED; and
2. The clerk will transmit copies of the Memorandum Opinion and this Order to counsel for the parties.
/s/
DEBORAH K. CHASANOW
United States District Judge

12a
APPENDIX D
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND
[Filed September 9, 2019]
————
Civil Action No. DKC 11-0951
————
YASMIN REYAZUDDIN
v.
MONTGOMERY COUNTY, MARYLAND
————
MEMORANDUM OPINION
Presently pending and ready for resolution in this
disability discrimination case is Plaintiff Yasmin
Reyazuddin’s motion for a finding that she is entitled
to an award of reasonable attorneys’ fees, costs, and
expenses. (ECF No. 403). The issues have been fully
briefed, and the court now rules, no hearing being
deemed necessary. Local Rule 105.6. For the following
reasons, the motion will be denied.
I. Background
In April of 2011, Ms. Reyazuddin sued Defendant
Montgomery County (“Defendant” or the “County”) for
violation of § 504 of the Rehabilitation Act, 29 U.S.C.
§ 794. (ECF No. 1). Ms. Reyazuddin’s claim stemmed
from the County’s failure to accommodate her disability: Ms. Reyazuddin is blind. As alleged in the
complaint, as of 2009, the County employed Ms.
Reyazuddin as a customer service representative at a
County call center. When the County moved to a new

13a
call center (“MC311”), Ms. Reyazuddin was denied the
opportunity to make the move. The County’s new call
center came with new software, which was not then
accessible to the blind. (Id.) Instead, Ms. Reyazuddin
was placed in a series of alternate positions.
Ms. Reyazuddin sought declaratory and injunctive
relief from the County, as well as compensatory
damages, based on the Rehabilitation Act and the
Americans with Disabilities Act. In 2014, this court
granted summary judgment in favor of Montgomery
County. (ECF No. 108). Ms. Reyazuddin successfully
appealed with regard to the Rehabilitation Act
claim, (ECF No. 113), and, in 2016, the remaining
issues went to trial. The jury found that the County
had failed to provide a reasonable accommodation
but awarded $0 in damages. (ECF No. 221). Several
months later, the County finally transferred Ms.
Reyazuddin to MC311. (ECF No. 403, at 4). In August
2017, this court denied Ms. Reyazuddin’s request
for injunctive relief on the ground that she was no
longer employed in inadequate alternate positions
and was now employed at MC311. (ECF No. 353). The
court also declined to issue a declaratory judgment
because “[t]he jury made clear that Defendant’s
earlier accommodation was insufficient[]” and “[f]urther
expounding on the jury’s verdict would be superfluous[.]” (Id. at 41-42). Ms. Reyazuddin again appealed
and the Fourth Circuit affirmed this court’s judgment.
(ECF No. 398-1).
On January 18, 2019, Ms. Reyazuddin filed a motion
for attorneys’ fees claiming she is a “prevailing party”
under the Rehabilitation Act. (ECF No. 403).

14a
II. Analysis
Under the Rehabilitation Act, “[i]n any action or proceeding to enforce or charge a violation of a provision
of this subchapter, the court, in its discretion, may
allow the prevailing party, other than the United
States, a reasonable attorneys’ fee as part of the
costs.” 29 U.S.C. § 794a. “The term ‘prevailing party’. . .
is a ‘legal term of art,’ . . . and is ‘interpreted. . . consistently’ – that is, without distinctions based on the
particular statutory context in which it appears.”
Smyth ex rel. Smyth v. Rivero, 282 F.3d 268, 274 (4th
Cir. 2002) (quoting Buckhannon Bd. & Care Home,
Inc. v. W. Va. Dep’t of Health and Human Resources,
532 U.S. 598, 603 n. 4 (2001))(internal citations omitted).
To be considered a “prevailing party,” a plaintiff
must obtain “an enforceable judgment . . . or comparable relief through a consent decree or settlement.”
Farrar v. Hobby, 506 U.S. 103, 111 (1992) (internal
citations omitted). There is no consent decree or
settlement in this case. Thus, the only avenue open
to Ms. Reyazuddin is the first of the Farrar options:
an enforceable judgment. As will be discussed, while
Ms. Reyazuddin has won a judgment, it cannot be
characterized as an enforceable one sufficient to make
her a prevailing party.
Plaintiff relies on a case from the United States
Court of Appeals for the District of Columbia, Select
Milk Producers, Inc. v. Johanns, 400 F.3d 939, 947
(D.C. Cir. 2005), as well as a Fourth Circuit case,
Dennis v. Columbia Colleton Med. Ctr. Inc., 290 F.3d
639, 652-53 (4th Cir. 2002), for the proposition the
amount of damages is irrelevant. (ECF No. 406, at 3).
Justice O’Connor’s much-cited concurrence in Farrar,
which plaintiff relies on – and which forms the basis
of both Select Milk Producers and Dennis – makes

15a
clear that there is a difference between nominal
damages and no damages: there, the plaintiff “obtained an enforceable judgment for one dollar in nominal damages. One dollar is not exactly a bonanza,
but it constitutes relief on the merits. And it affects
the defendant’s behavior toward the plaintiff, if only
by forcing him to pay one dollar – something he
would not otherwise have done.” Farrar, 506 U.S. 103,
116–17 (O’Connor, J., concurring). In sum, to claim
“prevailing party” status, the judgment must “materially alter[] the legal relationship between the parties
by modifying the defendant’s behavior in a way that
directly benefits the plaintiff.” Id. at 111-12 (majority
opinion). One dollar technically accomplishes that
(even if it does not ultimately warrant an award of
attorneys’ fees), but zero dollars does not.
Put another way, “a judicial pronouncement that
the defendant has violated the [law],” standing alone,
“does not render the plaintiff a prevailing party.” Id.
at 112; see also Hewitt v. Helms, 482 U.S. 755, 762
(1987) (“the moral satisfaction of knowing that a federal court concluded that [a plaintiff’s] rights ha[ve]
been violated” is insufficient to render plaintiff a prevailing party”). There has been no material alteration
of the legal relationship between the parties by virtue
of a judgment in this case.
Plaintiff argues that her claim “is even stronger
than that of many other plaintiffs who have recovered
fees. For example, plaintiffs are routinely found to
be prevailing parties when a defendant settles[.]”
(ECF No. 403, at 5). Ms. Reyazuddin, however, can
point to no case in this circuit or out where a settlement alone was found to have the necessary “judicial
imprimatur” to render a plaintiff the “prevailing

16a
party.” All of Ms. Reyazuddin’s cited cases involve a
judicial grant of equitable relief.
The court has found, of course, that the County has
now reasonably accommodated Ms. Reyazuddin and
thus that Ms. Reyazuddin has achieved a measure of
success. That success, however, lacks the requisite
“judicial imprimatur.” Ms. Reyazuddin ultimately
did “prevail[] on the most significant issue in this
litigation (her request to be transferred to the MC311
Call Center with accommodations[.)]” (ECF No. 403,
at 11). Plaintiff may even be correct that “[t]he jury’s
verdict was the predicate for the relief that Ms.
Reyazuddin obtained.” (ECF No. 406, at 2) (emphasis
added). This, however, is just another way of saying
that “the jury’s verdict was the catalyst for the relief
that Ms. Reyazuddin obtained.”
In other words, Plaintiff is simply advancing the
“catalyst theory,” which “posits that a plaintiff is a
‘prevailing party’ if it achieves the desired result
because the lawsuit brought about a voluntary change
in the defendant’s conduct.” Buckhannon, 532 U.S. at
601. The Supreme Court has expressly held that “the
‘catalyst theory’ is not a permissible basis for the
award of attorney[s’] fees[.]” Id. at 610.
It bears repeating that “prevailing party” is a legal
term of art, and is not met even if Ms. Reyazuddin
has “prevailed” in the everyday meaning of the word.
Ms. Reyazuddin does not meet the legal definition of a
“prevailing party,” as there has been no “court-ordered
change in the legal relationship between the plaintiff
and the defendant.” Id. at 604 (internal citations and
quotations omitted).

17a
III. Conclusion
For the foregoing reasons, the motion for a finding
that Plaintiff is entitled to an award of reasonable
attorneys’ fees will be denied. A separate order will
follow.
/s/
DEBORAH K. CHASANOW
United States District Judge

18a
APPENDIX E
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
————
No. 17-2103
————
YASMIN REYAZUDDIN,
Plaintiff-Appellant,
v.
MONTGOMERY COUNTY, MARYLAND,
Defendant-Appellee.
————
Appeal from the United States District Court
for the District of Maryland, at Greenbelt.
(8:11-cv-00951-DKC).
Deborah K. Chasanow,
Senior District Judge.
————
September 27, 2018, Argued;
November 21, 2018, Decided
————

19a
Counsel:
ARGUED:

Joseph B. Espo,
BROWN, GOLDSTEIN & LEVY, LLP,
Baltimore, Maryland, for Appellant.
Patricia Lisehora Kane,
OFFICE OF THE COUNTY ATTORNEY,
Rockville, Maryland, for Appellee.

ON BRIEF: Anthony J. May,
Jean M. Zachariasiewicz,
BROWN, GOLDSTEIN & LEVY, LLP,
Baltimore, Maryland; Albert Elia,
TRE LEGAL PRACTICE,
Fremont, California, for Appellant.
Marc P. Hansen, County Attorney,
John P. Markovs, Deputy County
Attorney, Patricia Victoria Haggerty,
Associate County Attorney, Erin J.
Ashbarry, Associate County Attorney,
Edward B. Lattner, Chief, Division
of Human Resources and Appeals,
OFFICE OF THE COUNTY ATTORNEY,
Rockville, Maryland, for Appellee.
Judges:

Before DIAZ, THACKER, and HARRIS,
Circuit Judges. Judge Diaz wrote the
opinion, in which Judge Thacker and
Judge Harris joined.

Opinion by: DIAZ

20a
OPINION
DIAZ, Circuit Judge:
Yasmin Reyazuddin appeals from a ruling that her
employer reasonably accommodated her for purposes
of the Rehabilitation Act. We hold that the district
court did not err in finding reasonable accommodation and in denying Reyazuddin equitable relief.
Accordingly, we affirm.
I.
Yasmin Reyazuddin, who is completely blind,
answered calls at a call center for a Montgomery
County, Maryland, government department.1 She
used an audio program to access computer software.
In 2008, Reyazuddin’s supervisor told her the County
was consolidating its call centers into one location
called MC311. The supervisor noted Reyazuddin’s
accessibility concerns and assured her the County
would move her to MC311. But when the County
finally opened MC311, a manager put an indefinite
delay on Reyazuddin’s transfer because her audio
program was incompatible with MC311’s customer
service program, Siebel.
Reyazuddin then worked several jobs for the County
that several County officials described as insufficient
or not meaningful. At first, she answered intermittent
calls and processed food assistance referrals. Then
the department let her choose between a full-time job
in childcare resources and referral or a part-time job
in aging and disability. Reyazuddin chose the part1

For further background, see this court’s opinion in
Reyazuddin’s first appeal. Reyazuddin v. Montgomery County
(Reyazuddin I), 789 F.3d 407, 410-13 (4th Cir. 2015).

21a
time job. But she still wanted to work at MC311 as a
Customer Service Representative II (“CSR II”). CSR
IIs typically answer both ordinary customer service
calls (“Tier I calls”) and calls that require specialized
knowledge or databases (“Tier II calls”).
Believing the County discriminated against her
based on disability when it refused to transfer her to
MC311 as a CSR II, Reyazuddin sued the County
under the Rehabilitation Act and Title II of the
Americans with Disabilities Act (“ADA”). The district
court granted the County summary judgment on all
claims. This court affirmed on the ADA Title II claim
but remanded the Rehabilitation Act claims for trial.
A few months before trial, the County offered
Reyazuddin a job at the Columbia Lighthouse for the
Blind, which she declined.
When the trial concluded, the jury found that the
County failed to accommodate Reyazuddin’s disability,
rejecting the County’s undue burden defense. The jury
found that Reyazuddin could perform all essential
functions of a CSR II at MC311. But it awarded
Reyazuddin $0 in damages. After the jury verdict, the
district court considered Reyazuddin’s demands for
equitable relief.
Before the district court heard evidence, the County
transferred Reyazuddin to MC311 as a CSR II. She
maintained her salary and benefits and got seniority
at MC311 dating back to 2009. She received extensive
training, but Siebel remained inaccessible.
At MC311, Reyazuddin answered calls through a
landline instead of through Siebel’s interface. She
couldn’t check or set her “aux” code, which displayed
her availability for calls. She accessed internal articles
on a spreadsheet instead of on Siebel. And she had to

22a
use the external portal on MC311’s public site instead
of the internal portal on Siebel. On the public site
she had to pass a test (which gave her trouble) to
prove she was a human user. And she couldn’t use
digital maps maintained on Siebel.
But the County worked to improve the accessibility problems. Before the bench trial, the County developed the Internal Web Accommodation Application
(“IWAA”), an alternative to Siebel. Reyazuddin can
access it without having to pass a test. Through
IWAA, Reyazuddin can now access all internal articles
and instructions. During the bench trial, the County
discovered and fixed the problem with Reyazuddin’s
aux code.
Some differences remain. CSR IIs normally take
both Tier I and Tier II calls. While Reyazuddin temporarily handled Tier I calls, she found the volume of
calls overwhelming and now she only takes Tier II
calls. Because she can’t access Siebel, Reyazuddin
doesn’t receive partially completed service requests
when a CSR I forwards her a call. Instead, she must
start a new service request. Unlike other CSR IIs,
Reyazuddin must submit her service requests before
hanging up, so she can’t edit them after the call. Nor
can she directly do quality review on her requests.
Instead, she must email suggestions to her supervisor, who can enter corrections. Reyazuddin can access
only two of about twelve digital maps. And without
access to Siebel, she can’t work remotely during
inclement weather. The County could solve many of
these problems by upgrading Siebel. But while the
County has a contract with Siebel’s developer to
upgrade the system, it hasn’t identified when it will
complete it.

23a
Nonetheless, the district court held that the
County had reasonably accommodated Reyazuddin. It
found that she could perform to the same level as her
coworkers and faced no barriers to advancement. The
court denied Reyazuddin all equitable relief because it
considered the discrimination isolated and unlikely to
recur.
Reyazuddin now appeals, contending that the
district court erred in finding reasonable accommodation and erred by denying injunctive and declaratory
relief.
II.
Reyazuddin first contends that the district court
erred in finding that the County reasonably accommodated her at MC311. The Rehabilitation Act requires
the County to accommodate Reyazuddin if she can
perform a job’s essential functions. See 29 U.S.C.
§ 794; Reyazuddin I, 789 F.3d at 409. When the
district court determined the essential functions of a
CSR II and found reasonable accommodation, it made
findings of fact. See Pandazides v. Va. Bd. of Educ., 13
F.3d 823, 833 (4th Cir. 1994). We review these findings
of fact for clear error and will not reverse a finding if
it “is plausible in light of the record viewed in its
entirety.” TFWS, Inc. v. Franchot, 572 F.3d 186, 196
(4th Cir. 2009) (quoting Anderson v. Bessemer City,
470 U.S. 564, 573-74, 105 S. Ct. 1504, 84 L. Ed. 2d 518
(1985)).
The Rehabilitation Act requires reasonable accommodations unless it would be an undue burden. See
42 U.S.C. § 12112; 29 C.F.R. § 1630.9.2 Reasonable
2

We cite authorities for both the Rehabilitation Act and the
ADA, which contain identical standards regarding the issues in

24a
accommodations must enable an employee with a
disability to perform essential job functions and to
enjoy equal job privileges. See 29 C.F.R. § 1630.2(o).
Essential functions are “the fundamental job duties”
of a position. Id. § 1630.2(n)(1). To determine whether
a function is essential, we consider the employer’s
judgment, written job descriptions, and other defined
factors. 29 C.F.R. § 1630.2(n)(3); 42 U.S.C. § 12111(8);
see also Jacobs v. N.C. Admin. Office of the Courts,
780 F.3d 562, 579 (4th Cir. 2015).
Reasonable accommodations can include reallocating marginal functions to another employee. See
42 U.S.C. § 12111(9)(B); 29 C.F.R. § 1630.2(o)(2)(ii);
Benson v. Nw. Airlines, Inc., 62 F.3d 1108, 1112-13
(8th Cir. 1995). And while an “employer never has
to reallocate essential functions,” it may “do so if it
wishes.” U.S. Equal Emp. Opportunity Comm’n, No.
915.002, Enforcement Guidance: Reasonable Accommodation and Undue Hardship Under the Americans
with Disabilities Act (2002), https://www.eeoc.gov/
policy/docs/accommodation.html#job (last visited Nov.
9, 2018) (saved as ECF opinion attachment). Beyond
reallocation, an employer may change how and when
an employee performs an essential function. See 29
C.F.R. § 1630 app. Courts should not discourage
employers from going beyond the Rehabilitation Act’s
requirements and restructuring essential functions as
accommodation. See Phelps v. Optima Health, Inc.,
251 F.3d 21, 26-27 (1st Cir. 2001); Holbrook v. City of
Alpharetta, 112 F.3d 1522, 1528 (11th Cir. 1977).
Reyazuddin gives three reasons why the County
has not reasonably accommodated her. First, it has
this case. See Constantine v. Rectors & Visitors of George Mason
Univ., 411 F.3d 474, 498 & n.17 (4th Cir. 2005).

25a
eliminated essential functions of her job. Second, it
has limited her job performance. And third, it has
denied her opportunities for advancement. All three
arguments are unavailing.
First, the County’s restructuring of Reyazuddin’s job
was a reasonable accommodation. It is true that
Reyazuddin doesn’t answer Tier I calls, must reenter
some information after receiving a forwarded service
request, and can’t use most digital maps or do direct
quality review. But to the extent these functions are
essential,3 the district court correctly observed that
the Rehabilitation Act doesn’t require that
Reyazuddin perform them the same way as her
coworkers.4 Because the County’s accommodations do
not change her job, they are acceptable alterations to
when and how Reyazuddin performs an essential
function. See 29 C.F.R. § 1630 app.
The County restricted Reyazuddin to Tier II calls
to keep her from getting overwhelmed and to focus
her work on calls she is best equipped to handle. As
part of an accommodation, employers may shift an
employee’s duties to fit their skills and capabilities.
See, e.g., Bunn v. Khory Enters., Inc., 753 F.3d 676, 680
(7th Cir. 2014) (deploying employee to single duty
station instead of rotating him between stations);
Basith v. Cook County, 241 F.3d 919, 930, 932 (7th Cir.
3

The district court was somewhat unclear on this point. See
Reyazuddin v. Montgomery County, 276 F. Supp. 3d 462, 475-77
(D. Md. 2017).
4

The district court relied in part on interpretive guidance
regarding supported employment. See Reyazuddin, 279 F. Supp.
3d at 476. That guidance is inapplicable to this case, but it doesn’t
affect the outcome. See 29 C.F.R. § 1630 app. (defining supported
employment); 42 U.S.C. § 15002(30) (defining supported employment services).

26a
2001) (moving employee to alternative shift with different duties). Moreover, the written job description
doesn’t require CSR IIs to answer Tier II calls from
all departments or any Tier I calls at all.
The Ninth Circuit case Reyazuddin cites in support
is inapposite. See Cripe v. City of San Jose, 261 F.3d
877 (9th Cir. 2001). First, it concerned different issues:
whether the plaintiffs could perform essential job
functions and whether the employer unlawfully segregated them. Id. at 888-90. And second, the Cripe
employer forced disabled employees into a distinct job
with no meaningful employment opportunities. See id.
at 882-83. In contrast, Reyazuddin performs the same
job as her peers—answering customer service calls.
She just performs it differently.
Second, the County hasn’t limited Reyazuddin’s job
performance. Her employment opportunities are
meaningfully equal to those of her peers. All CSR IIs
receive Tier II calls from some departments and not
others. And the fact that (at least for now) Reyazuddin
doesn’t receive Tier I calls hardly limits her performance: she still has many Tier II calls to answer. The
technical alterations made by the County, such as not
receiving forwarded service requests, do not change
her overall performance. And the accommodations
haven’t affected Reyazuddin’s salary or benefits. True,
Reyazuddin can’t telework during inclement weather.
But teleworking is at the County’s discretion: no
employee has a right to it.5 And when an employee
can’t reach the office, teleworking is for the County’s
5

The fact that Reyazuddin can’t currently telework because
she is on a Work Improvement Plan is irrelevant. The question
is whether the County would have to provide teleworking accommodations if she were otherwise eligible.

27a
benefit, not the employee’s. So the inability to telework
doesn’t limit Reyazuddin’s employment opportunities.
Third, the County has not denied Reyazuddin any
opportunity for advancement. The requirements to
advance are minimal. To advance to CSR Supervisor,
an employee only needs four years of customer service
experience with the County (at least two as a
CSR II) and familiarity with the systems in MC311.
Reyazuddin can be promoted if she does well in her
duties and develops supervisory skills. Unlike in
Cripe, the County hasn’t imposed a functional bar on
advancement for disabled employees. See 261 F.3d at
882, 894. And while Reyazuddin contends that the
County requires a vision test for promotion to CSR II,
County regulations say otherwise. See Montgomery
County, Md., Reg. § 33.07.01.08-6(b)(2)(B)(i)—(ii).
The district court did not err in finding reasonable
accommodation.6
III.
Reyazuddin next contends that the district court
erred by denying her injunctive relief. Reyazuddin
asked for two injunctions. First, she requested a mandatory injunction requiring the County to assign her
Tier I calls and make Siebel and the digital maps
accessible. Second, she requested a prohibitory
injunction forbidding the County from discriminating
against her again.

6

The County also argues that it made a reasonable accommodation when it offered to move Reyazuddin to Columbia Lighthouse for the Blind. Given our disposition, we (like the district
court) need not address this argument. See Reyazuddin, 279 F.
Supp. 3d at 477 n.5.

28a
We review a district court’s denial of an injunction
for abuse of discretion. See Nat’l Fed’n of the Blind v.
Lamone, 813 F.3d 494, 502 (4th Cir. 2016). Reyazuddin
contends that the district court erred in two ways.
First, Reyazuddin says the district court lacked discretion to deny injunctive relief because the jury
found that the County had discriminated against her.
Second, even if the district court had discretion, it
abused it here because the County systematically
discriminated against Reyazuddin and would not
accommodate her without litigation. We reject both
arguments.
Regarding the first argument, a district court
generally has broad discretion to fashion a remedy
that will “eliminate past discrimination and bar discrimination in the future.” United States v. County of
Fairfax, 629 F.2d 932, 941 (4th Cir. 1980); see also
Albemarle Paper Co. v. Moody, 422 U.S. 405, 418, 95
S. Ct. 2362, 45 L. Ed. 2d 280 (1975). Seeking to cabin
that discretion, Reyazuddin relies on a statement
from this court that “when a plaintiff has prevailed
and established the defendant’s liability under Title
VII, there is no discretion to deny injunctive relief
completely.” United States v. Gregory, 871 F.2d 1239,
1246 (4th Cir. 1989).
While phrased in absolute terms, we do not believe
Gregory intended to eliminate a district court’s discretion in granting equitable relief.7 We note that our
decision cited Supreme Court and circuit precedents
that don’t require injunctions in all civil rights cases.
See id. (citing Albemarle Paper, 422 U.S. at 418;
7

Reyazuddin also relies on King v. McMillan, 594 F.3d 301,
310 (4th Cir. 2010). But King cites Gregory for an unrelated proposition, and King‘s holding has no bearing on this case.

29a
County of Fairfax, 629 F.2d at 941-42). Moreover, this
court has affirmed the denial of injunctions in other
civil rights cases. See Spencer v. Gen. Elec. Co., 894
F.2d 651, 660 (4th Cir. 1990), abrogated on other
grounds by Farrar v. Hobby, 506 U.S. 103, 108 n.2, 113
S. Ct. 566, 121 L. Ed. 2d 494 (1992). In short, we’ve not
limited district courts’ discretion to fashion remedies
in civil rights cases, and we decline to do so now.8
Nor do we believe that the district court abused its
discretion here. An injunction is proper if “there exists
some cognizable danger of recurrent violation.” United
States v. W.T. Grant Co., 345 U.S. 629, 633, 73 S. Ct.
894, 97 L. Ed. 1303 (1953). In a discrimination case,
an injunction is most appropriate when the employer
has failed to adequately remedy the discrimination
and prevent its recurrence. See Gregory, 871 F.2d at
1247; County of Fairfax, 629 F.2d at 941. If the
discrimination is unlikely to recur, we “should defer to
the lower court’s choice in crafting appropriate relief.”
Spencer, 894 F.2d at 660.
In this case, the County has acted in good faith to
remedy past discrimination and prevent its recurrence. As a result, a mandatory injunction requiring
further accommodation is unnecessary.9 And a prohibitory injunction would serve little purpose. The County
never denied that it had to accommodate Reyazuddin;
it only disputed the method. The County made
several accommodations without a court order. It
offered Reyazuddin a new job before the jury trial,
8

Given our holding, the parties’ dispute over whether
Reyazuddin “prevailed” in the district court is irrelevant.
9

Of course, the County can voluntarily make further accommodations, such as upgrading Siebel to make it accessible. But on
this record, the County’s current accommodations are sufficient.

30a
moved her to MC311 and spent money and time on
accommodations before the bench trial, and fixed the
aux code problem during the bench trial. And the
discrimination related to a one-time event—the
organization of MC311. It is unlikely to recur. Finally,
while the problem was less isolated than in Spencer, it
lacked the systematic and persistent quality found in
Gregory and County of Fairfax.
The district court acted well within its discretion in
declining to enter an injunction.
IV.
Reyazuddin contends last that the district court
erred by denying her declaratory relief. She sought
a declaration—based on the jury verdict—that the
County discriminated against her. A district court
should issue a declaration when it will help in
“clarifying and settling” legal relationships and will
“terminate and afford relief from the uncertainty,
insecurity, and controversy” driving the suit. Aetna
Cas. & Sur. Co. v. Ind-Com Elec. Co., 139 F.3d 419,
423 (4th Cir. 1998) (quoting Aetna Cas. & Sur. Co. v.
Quarles, 92 F.2d 321, 325 (4th Cir. 1937)). We review
the denial of a declaration for abuse of discretion. See
id. at 421.
The jury found that the County discriminated by
refusing to transfer Reyazuddin to MC311. That
verdict now has limited relevance because the County
has accommodated Reyazuddin. Expounding on it
would be superfluous as it would “neither clarify any
issue of law . . . nor provide relief from uncertainty.”
Pitrolo v. County of Buncombe, 589 F. App’x 619, 621
(4th Cir. 2014). The district court thus did not abuse
its discretion in denying this form of equitable relief.

31a
V.
The district court did not err in finding that
Montgomery County reasonably accommodated
Reyazuddin. Nor did it abuse its discretion by denying
her injunctive and declaratory relief. Accordingly, the
district court’s judgment is affirmed.
AFFIRMED

32a
APPENDIX F
UNITED STATES DISTRICT COURT FOR THE
DISTRICT OF MARYLAND
————
Civil Action No. DKC 11-0951
————
YASMIN REYAZUDDIN
v.
MONTGOMERY COUNTY, MARYLAND
————
August 21, 2017, Filed
————
Counsel:

For Yasmin Reyazuddin, Plaintiff: Albert
Elia, Daniel Frank Goldstein, Joseph B
Espo, Brown Goldstein and Levy, LLP,
Baltimore, MD; Timothy R Elder, TRE
Legal Practice, Fremont, CA.
For Montgomery County, Maryland,
Defendant: Patricia Victoria Haggerty,
Office of the County Attorney for
Montgomery County, Marylan, Rockville,
MD; Patricia Lisehora Kane, Office of the
Montgomery County Attorney, Rockville,
MD.
For Array Information Technology, Inc.,
Movant: Russell James Gaspar, Cohen
Mohr LLP, Washington, DC.

Judges:

DEBORAH K. CHASANOW,
United States District Judge.

Opinion by: DEBORAH K. CHASANOW

33a
MEMORANDUM OPINION
After more than six years of litigation in this
employment discrimination case, the remaining
issues of declaratory and injunctive relief are ready
for resolution.
I. Background
In April 2011, Plaintiff Yasmin Reyazuddin (“Plaintiff”), a Montgomery County employee since 2002,
brought the instant suit in which she has brought
claims under Section 504 of the Rehabilitation Act of
1973, 29 U.S.C. § 794 and the Americans with
Disabilities Act (“ADA”), 42 U.S.C. § 12101, et seq.
(ECF No. 1). In early 2008, Defendant Montgomery
County, Maryland (“Defendant” or “the County”)
began a reorganization of the County’s customer
service employees from various executive departments
to a single county-wide call center, referred to as “MC
311.” At that time, Plaintiff worked as an Information
and Referral Specialist in the County’s Health and
Human Services Department (“HHS”). Although her
colleagues in the same or similar positions were
transferred to MC 311 as Customer Service Representatives (“CSRs”) when the call center finally
opened in the fall of 2009, Plaintiff, who is blind, was
not transferred to the call center because the County
thought it would be too burdensome to make the
tools and software used by CSRs accessible to her.
Instead, Plaintiff was transferred to two positions
within the Aging and Disabilities Services (“ADS”)
section of HHS. Her discrimination claims faulted
the County for failing to provide a reasonable accommodation for her disability that would allow her to
transfer to MC 311 as a CSR with her non-disabled
peers.

34a
During a February 2016 jury trial, Plaintiff presented evidence that her ADS positions failed to
provide her with consistent, meaningful work and
that she could have performed the job duties of a
CSR with a reasonable accommodation. The court
instructed the jury to consider, inter alia, whether
Plaintiff could perform “[t]he essential job functions . . .
routinely performed by individuals in the MC 311
call center.” (ECF No. 212, at 11). The jury found
that Plaintiff could perform the essential functions of
a CSR with a reasonable accommodation and that
Defendant had failed to provide a reasonable accommodation for her disability. (ECF No. 221). The jury
also reviewed and rejected Defendant’s affirmative
defense that it would have been an undue hardship “to
implement the software accommodations Plaintiff
had requested.” (Id.; ECF No. 212, at 13-14). It determined, however, that Plaintiff had sustained zero
dollars in damages. (ECF No. 221).
Plaintiff’s complaint also sought injunctive and
declaratory relief. (ECF Nos. 1, at 8-9; 58, at 10).
After the jury trial, Plaintiff moved for an order
requiring Defendant to make MC 311 accessible and
to give Plaintiff a job as a CSR, consistent with the
position she would have been in had the discrimination not occurred. (ECF No. 228, at 7). Defendant
argued, first, that injunctive relief was inappropriate
and, second, that Plaintiff’s entitlement to a reasonable accommodation had been satisfied when the
County offered Plaintiff a position at the Columbia
Lighthouse for the Blind (“CLB”) in October 2015.
(ECF No. 229). This offer, which Plaintiff rejected,
was made during the litigation. Rather than incorporate that offer into the then-upcoming jury trial,
Plaintiff limited her claims at that trial to the County’s
conduct and her damages up until the October 2015

35a
offer of a position at CLB. (See id. at 7-8). Whether
the CLB position was a reasonable accommodation
was therefore not considered by the jury. Thus, notwithstanding the jury’s verdict that the ADS positions
were not a reasonable accommodation, Plaintiff’s
initial motion for injunctive relief was denied because
she had not demonstrated that the CLB offer had
not extinguished any entitlement she might have had
to injunctive relief. (ECF Nos. 235, at 1; 246, at 61-63).
The parties proceeded to discovery to litigate Plaintiff’s equitable claims in May 2016. (ECF Nos. 236;
238; 241).
While discovery related to the CLB offer was
ongoing, Defendant notified Plaintiff that she would
be transferred to MC 311. (ECF No. 258-1, at 1). This
transfer occurred on October 26, 2016, and Plaintiff is
now employed as a CSR II at MC 311. Defendant
then moved to stay discovery to brief whether
Plaintiff’s claims had been mooted by her transfer.
(ECF No. 258). The court granted the stay temporarily
and ultimately determined that an evidentiary hearing was necessary to resolve Plaintiff’s request for
injunctive relief in light of her new position. (ECF
Nos. 262; 266). In advance of that hearing, Plaintiff
filed a new motion for injunctive relief and a motion
for partial summary judgment as to the CLB job offer.
(ECF Nos. 295; 296). Defendant filed a motion to
dismiss or for summary judgment. (ECF No. 300).
Each of these motions was briefed in full by the
parties, and the court deferred consideration of the
motions. (ECF Nos. 304; 310; 311; 315; 316; 319; 322).
In light of Plaintiff’s current placement, she has
modified her request for injunctive relief. Although
she is working at MC 311, Plaintiff argues that
Defendant continues to discriminate against her.

36a
Specifically, Plaintiff contends that differences
between her job duties as a CSR and the duties of
other CSRs constitute an ongoing failure to provide a
reasonable accommodation. Plaintiff currently seeks:
(1) a declaration that Defendant discriminated against
her because of her blindness and (2) a permanent
injunction ordering the County to make certain
technology systems accessible to her and prohibiting it
from allowing the accessibility of currently accessible
systems to lapse. (See ECF Nos. 295; 351). The issues
were briefed in dispositive motions on injunctive relief
and mootness, and an evidentiary hearing was held
from April 19 to April 28, 2017. (See ECF Nos. 295;
300; 310; 311; 316; 319; 328; 329; 330; 331; 332; 346;
348). Upon consideration of the evidence adduced at
the jury trial and the evidentiary hearing, as well as
the parties’ arguments with respect thereto, the court
now issues findings of fact and conclusions of law
pursuant to Federal Rule of Civil Procedure 52(a).1
II. Mootness
Defendant contends that the Plaintiff’s claim is now
moot because she has been placed at MC 311 as a CSR
as she originally requested. The mootness doctrine
applies “when the issues presented are no longer ‘live’
or the parties lack a legally cognizable interest in the
outcome.” Simmons v. United Mortg. & Loan Inv.,
LLC, 634 F.3d 754, 763 (4th Cir. 2011) (citing United
States v. Hardy, 545 F.3d 280, 283 (4th Cir. 2008)).
Mootness deprives a court of jurisdiction over a case.
1

Rule 52(a) provides, in relevant part, that “[i]n an action
tried on the facts without a jury . . . , the court must find the facts
specially and state its conclusions of law separately. The findings
and conclusions . . . may appear in an opinion or a memorandum
of decision filed by the court.”

37a
“If intervening factual or legal events effectively dispel
the case or controversy during the pendency of the
suit, the federal courts are powerless to decide the
questions presented.” Ross v. Reed, 719 F.2d 689, 69394 (4th Cir. 1983).
In its motion papers, the County argues that there
is no “ongoing case or controversy [] involving her
requested injunctive relief — to be instated as a CSR
II at MC 311.” (ECF No. 300-2, at 24). The County
claims that it has remedied the injury that Plaintiff
had previously suffered. (Id. at 26-27). It contends that
the County provided the relief Plaintiff sought when it
“voluntarily transferred Plaintiff to MC 311 and []
invested hundreds of hours of employee and contractor
time to facilitate Plaintiff’s transition into working as
a CSR II at MC 311.” (Id. at 26).
It is undisputed that Plaintiff is working at MC
311 and her job title is CSR II, but these facts alone
are insufficient to moot Plaintiff’s claims for injunctive relief without review of the merits. Defendant’s
argument relies on the factual and legal determinations presently before the court, specifically, whether
her current role provides her with a meaningful equal
employment opportunity as required by the ADA.
Here, if Plaintiff could prove her claim that, in spite
of her change in location and job title, Defendant’s
refusal to make certain technological tools fully
accessible to her constituted a failure to provide her
with a reasonable accommodation, she would have a
“live” claim for injunctive relief. Only if Defendant is
correct that it is now complying with its legal
requirements under the ADA would the controversy
cease to exist. Mootness occurs when the resolution
of the issues presented in the case would not effectuate
a remedy, even if the claims were resolved in the

38a
plaintiff’s favor. Because Defendant’s mootness argument hinges on the merits of whether Plaintiff’s
current placement satisfies the requirements of the
ADA, the case clearly is not moot.
III. Facts from Evidence Presented at the Jury Trial
and the Evidentiary Hearing2
At the evidentiary hearing, Plaintiff presented fact
testimony from Dieter Klinger, Katherine Johnson,
Chris Daniel, Stephen Heissner, and Jay Kenney.
These witnesses and others at the evidentiary hearing
testified primarily as to the workings of MC 311 and
differences between Plaintiff’s CSR II role and that of
other CSR IIs. Defendant presented fact testimony
from Plaintiff, Mr. Klinger, Mr. Daniel, Mr. Heissner,
Mr. Kenney, Chris Turner, Robert Sinkler, William
Potter, Kim Alfonso, Vivian Green, and Leslie Hamm.
Most of Defendant’s fact witnesses are either employees of MC 311 who supervised or trained Plaintiff or
other County employees, primarily in the Department
of Technology Services (“DTS”), who helped provide
technology accommodations for Plaintiff. They testified as to the variety of ways that Defendant has
already accommodated Plaintiff in her new position.
The parties’ experts testified as to whether it was

2

These findings are based on the evidence presented at the
jury trial and the evidentiary hearing. At the latter, the parties
presented limited live testimony and submitted deposition testimony from numerous witnesses. Most evidentiary objections
were raised during the hearing and resolved. A few objections
were noted for later resolution and remained at the conclusion of
the hearing. None of those remaining objections pertain to evidence that is germane to the rulings announced in this opinion,
and, accordingly, to the extent any pending objections remain,
they are denied as moot.

39a
possible and at what costs, in terms of time and
money, to make certain systems accessible to Plaintiff.
a. The MC 311 Call Center
MC 311 uses a software system produced by Oracle
Corporation called Seibel to track and respond to
incoming calls. The County currently uses version
8.2.2.4 of Siebel, a newer version than the one considered in the jury trial. Version 8.2.2.4 is not the
newest version of Seibel, however. At least two
updated versions, referred to as Innovation Pack 15
and Innovation Pack 16 (“IP 16”), exist and would
increase the accessibility of the system to blind users.
The County has a contract in place to upgrade to IP 16
and expects to implement it by the end of 2017.
Seibel has two interfaces: a public portal, through
which County residents can submit requests online,
and an internal portal, through which CSRs submit
service requests on behalf of the people who call MC
311. The internal portal is more comprehensive than
the public portal. While using the internal portal, for
example, CSRs read through Knowledge-Based
Articles (“KBAs”), pre-written instructions, based on
a caller’s request type, for how appropriately to answer
the caller’s question and submit the service request.
The internal portal is also integrated with the
County’s phone system, which provides CSRs with
a series of tools, referred to as the CTI Toolbar, that
help manage calls, transfer caller information, and
monitor CSR status. After a request is submitted, it
goes to the appropriate County department to be
resolved. Seibel assigns each service request a reference number that can be tracked by the resident or
other CSRs to check progress on the request.

40a
The call center divides calls into two “Tiers” based
on the types of knowledge and software necessary to
respond to them. Tier 1 calls are calls related to any
department that can be answered easily by most
CSRs. These calls include many of the most common
requests and are generally resolved using only the
Seibel system, KBAs, and a series of interactive maps.
Certain other calls require the CSR to use supplementary software and databases related to several
departments including HHS (CARES), the Permitting
Services Department (Hansen), the Finance Department (Munis), as well as Human Resources for
County employees. Some of those systems are created
and maintained by other entities, separate from
Montgomery County. In addition to creating service
requests in Seibel, CSRs answering these calls must
provide specialized information as to the types of
services available and must know how to use these
department-specific databases. MC 311 refers to these
more complicated calls as Tier 2 calls. All calls enter
the system as Tier 1 calls because the call center
does not know why a resident is calling before
answering the call; calls are then reassigned as Tier 2
if necessary.
MC 311 employs two corresponding types of CSRs.
A CSR I can assist with Tier 1 requests but not Tier 2
requests. They answer all calls as they come in and
directly respond to any Tier 1 inquiries. If answering
a caller’s question requires the specialized training
and database access for one of the Tier 2 departments,
the CSR I will place the call into the Tier 2 queue
specific to the appropriate Tier 2 department. The
caller will then be transferred to a line that will be
answered by someone trained to assist with that type
of Tier 2 call.

41a
Those CSRs who can answer Tier 2 calls are called
CSR IIs. Most CSR IIs are trained in more than one,
but not usually all four, of the departments. Thus, a
single CSR II might answer calls from, for example,
both the HHS and Permitting Departments. CSR IIs
generally are also able to answer Tier 1 calls. The call
center’s phone system will first route any Tier 2 calls
to a CSR II trained in that queue. If there are no
callers waiting in a CSR II’s Tier 2 queues, the system
will instead send Tier 1 calls to that CSR II.
b. Plaintiff’s Current Position
Plaintiff now works at MC 311 as a CSR II. She is
assigned only one of the Tier 2 queues, HHS calls.
Unlike other CSR IIs, Plaintiff does not receive Tier 1
calls because she cannot currently access the internal
portal of the Seibel system or the interactive maps.
Because she can only answer Tier 2 HHS calls,
Defendant has set the phone system to make Plaintiff
the primary recipient in the queue of these calls; no
other CSR II will receive a Tier 2 HHS call unless
Plaintiff is occupied. In addition to the Tier 2 HHS
calls she is currently receiving, Plaintiff has the
capability to receive Tier 1 calls for the HHS department. Plaintiff has not been trained to take other
types of calls.
Plaintiff looks up information and submits service
requests using a screen reader called JAWS, an
acronym for Job Access With Speech, which reads
aloud to a blind user the information that is displayed
on a screen for sighted users. JAWS also allows a
blind user to set shortcuts for navigating a page using
specific key combinations, which helps users bypass
the default navigation of the page that sometimes
leads through cumbersome paths or to dead-ends. The
process of setting up JAWS to read and navigate a

42a
page effectively is called “scripting.” Plaintiff uses a
customized JAWS-scripted public portal on a nonpublic County application designed for her. The
parties refer to this system as the Internal Web
Accommodation Application (“IWAA”).
Plaintiff’s CSR II role differs from that of other
CSR IIs in a variety of ways. Most importantly,
Plaintiff does not have access to the Seibel system’s
internal portal, the CTI Toolbar, or the specialized
maps, and, therefore, Plaintiff is not assigned to
answer any general Tier 1 calls. Additionally, there
are several differences between the tools Plaintiff uses
to respond to her Tier 2 HHS inquiries and the tools
that other CSR IIs answering the same calls use.
CSR IIs using the CTI Toolbar receive the caller’s
name and zip code from the Tier 1 CSR who transferred the caller into the HHS Tier 2 queue, but
Plaintiff does not receive this information and must
ask the caller for it herself. While the internal portal
creates a service request number for other CSRs at
the beginning of the request creation process, the
IWAA does not produce a service request number until
the request has been submitted. As a result, Plaintiff
must fully submit the request before ending the call
in order to provide the caller with the service request
number for future reference. To review and correct
her requests after hanging up the call, a process
referred to as “quality review,” Plaintiff must ask her
supervisor to process any changes. Other CSRs also
have the capability to telework, but Plaintiff does
not. Finally, the CTI Toolbar interfaces with the
County’s phone system to notify sighted CSRs of their
status in the queue — that is, whether they are ready
to receive calls — using what the County calls
AUX codes. Plaintiff did not have a method of accurately checking her AUX code status until the County

43a
implemented a new system for her during the
evidentiary hearing.
Defendant’s fact witnesses testified as to the numerous ways that Defendant has already accommodated
Plaintiff in her role as a CSR II. First, to facilitate
Plaintiff’s new role, the County moved from HHS to
MC 311 her computer, JAWS screen reader software,
and other equipment, including a braille display and
printer. The County hired a contractor to script the
HHS Tier 2 software database, CARES, for a JAWS
user. It also hired Thomas Logan, Defendant’s accessibility expert witness, to educate several employees,
including Mr. Turner and Mr. Sinkler, about JAWS
usage so that they could train and manage Plaintiff.
Second, Defendant has customized a series of applications to enable Plaintiff to enter service requests.
When Plaintiff was initially transferred to MC 311,
she was given an Excel spreadsheet with the KBAs
and instructed to submit service requests on behalf of
callers through the public portal of Seibel. This
workflow design proved to be difficult for Plaintiff
because she had to answer a CAPTCHA with each
request. CAPTCHA, the robot-preventing software
that typically shows a picture of a number or word
and asks the user to type that number or word into a
blank field, has an accessible solution for blind users,
but, for reasons not discussed by the parties, Plaintiff
was unable to answer the CAPTCHA correctly on a
consistent basis. In order to resolve the CAPTCHA
issue, Defendant’s DTS employees developed and
implemented the IWAA, which allowed Plaintiff to
submit requests through a similar, but non-public,
portal without answering a CAPTCHA. Because the
IWAA was a custom solution tailored especially to
Plaintiff, it was designed to allow her to access the

44a
content necessary to respond to incoming HHS
requests using fewer keystrokes and JAWS shortcuts.
Third, the County has spent extensive time training
Plaintiff for her current role. During the customary
ten-week training period for a CSR, Plaintiff received
one-on-one training whereas other employees are
typically trained in groups of around eight. For reasons disputed by the parties, Plaintiff’s job performance at MC 311 has not met the call center’s
standards, and the County has continued to provide
her with further training after the initial classes. Mr.
Sinkler testified that Plaintiff has had difficulty with
identifying the caller’s issue, providing accurate information to the caller, documenting calls and requests
appropriately, exercising proper tone and demeanor,
and efficiently managing her calls and workload. (See
DTX 50).3 He and Mr. Daniel testified that Plaintiff
has generally refused to take notes during training
and has frequently relied on her own memory, as
opposed to the KBAs, leading to her providing information to callers that is incorrect or outdated. She
remains on a work improvement plan because of
these issues.
Mr. Sinkler also testified that, in addition to the
Tier 2 HHS calls she is currently receiving, Plaintiff
has been trained to use the IWAA to respond to Tier 1
calls for the HHS department. In order to limit the
Tier 1 calls routed to Plaintiff to calls for HHS
inquiries, the County set up the “press four option,”
allowing a caller to press the four button to be routed
directly into an HHS queue that was sent to Plaintiff
first. When the County implemented the press four
3

The designation “DTX” refers to exhibits offered by
Defendant.

45a
option, however, Plaintiff was overwhelmed by the
number of calls she received. The County therefore
withdrew the press four option, although the technical
capability still exists.
The parties’ experts testified as to whether, how,
and at what costs certain MC 311 systems could be
made accessible to Plaintiff. Defendant’s expert Mr.
Logan testified that he identified the thirteen accessibility issues with Seibel. He recommended implementing a native solution — a solution incorporated
into a newer version of the software made by the
manufacturer — such as IP 16, as opposed to JAWS
scripting, which he considered more “fragile.”
Plaintiff’s expert Daniel Buchness testified that he
tested the Seibel system currently in use at MC 311
for the thirteen accessibility errors identified by Mr.
Logan and for any unidentified errors. He estimated
that it would cost a total of $63,050.43 to use JAWS
scripting to remediate the errors he found, that the
scripting could be implemented in 3-5 weeks, and that
the scripting changes would “most likely” be compatible with upgrades from Oracle like IP 16. Mr.
Buchness acknowledged that one of the issues, the
application or browser “hanging” and “crashing” —
that is, lagging behind the user, freezing, or closing
unexpectedly — would likely be improved, but not
entirely resolved by his proposed repairs.
Plaintiff’s experts Shiri Azenkot and Charles
LaPierre testified that the data used in the maps
identified as necessary to answering Tier 1 calls
could likely be made accessible to a blind user. Based
on Mr. LaPierre’s estimates, it would cost somewhere
between $258,300 and $447,300 to makes these maps
accessible.

46a
Mr. Logan also demonstrated the difference between
using Seibel and using the IWAA to submit a hypothetical HHS request pertaining to an eviction notice.
He concluded that the IWAA was better sequenced,
required fewer steps, and took less time. Plaintiff
herself acknowledged that the IWAA makes it easier
for her to access KBAs and submit requests. Mr.
Klinger testified that adding more KBAs to the IWAA
would not cost the County any additional money.
IV. Findings of Fact and Conclusions of Law
a. Injunctive Relief
Plaintiff seeks a permanent injunction requiring the
County to make the Seibel system’s internal portal
and the data from the commonly used maps accessible
to her so that she can answer Tier 1 calls like all other
CSR IIs do. Specifically, she asks for an order
requiring the County to: (1) use JAWS scripting as
necessary to make the Seibel system fully accessible
to her within 60 days; (2) upgrade to IP 16, which
Oracle suggests should fix most or all of the accessibility issues Plaintiff complains of, by the end of the
2017 calendar year; (3) make accessible the maps she
would need most often within 18 months; and (4)
assign Plaintiff all of the duties of a CSR II, including
Tier 1 calls. She also seeks an order requiring the
County to replace Munis and Hansen, programs used
by CSR IIs in other Tier 2 queues, with accessible
versions when they become available. Finally, she
asks that the court order Defendant to maintain
the accessibility of all software that is currently
accessible.

47a
i. The Effect of the Jury Verdict
Plaintiff first argues that the County must make
the changes she has requested because the jury made
its determination based on the proposed duties of a
CSR that she posited in the jury trial. She contends
that, after the jury verdict, it is “indisputable that had
Defendant met its obligations under Section 504, the
software at MC311 would be accessible and Plaintiff
would be working at MC311 as a CSR II also answering [Tier 1] calls.” (ECF No. 295-1, at 8). Plaintiff
acknowledges that she is not automatically entitled
to equitable relief based on the jury’s findings, but
contends nevertheless that, “because she proved that
she is the victim of discrimination[,] she is entitled to
an injunction to prevent the ongoing harm she is
suffering.” (ECF No. 316, at 5).
Here, the jury verdict was based on whether
Plaintiff’s role at ADS was an equal employment
opportunity to that of her peers who had been
transferred to CSR positions at MC 311. Making the
accessibility changes Plaintiff now seeks would be
one way for Defendant to comply with the ADA
requirements, but the law is clear that the employer
has the ultimate discretion to choose between effective accommodations. Reyazuddin v. Montgomery Cty.
Md., 789 F.3d 407, 415-16 (4th Cir. 2015) (citing
Hankins v. The Gap, Inc., 84 F.3d 797, 800 (6th Cir.
1996); EEOC Interpretive Guidance on Title I of the
ADA, 29 C.F.R. § 1630 app. (2014)). If Defendant had
failed to offer Plaintiff any accommodations since
those considered by the jury, Plaintiff’s request for
injunctive relief based on the verdict would have force.
In light of the CLB job offer and, more importantly,
Plaintiff’s current position as a CSR at MC 311,
neither of which were considered by the jury, the

48a
verdict no longer provides any insight as to the
“ongoing harm she is suffering.” Thus, that verdict is
insufficient to dictate the outcome of Plaintiff’s
pending claim for injunctive relief.
ii. Applicable Legal Standard
The statutory provisions governing injunctive relief
under the ADA come from Title VII of the Civil Rights
Act of 1964, 42 U.S.C. § 2000e et seq. (“Title VII”). See
42 U.S.C. § 12133 (referring to 29 U.S.C. § 794a, which
in turn refers to 42 U.S.C. § 2000e-5, the enforcement
and remedies provisions of Title VII). The Supreme
Court has held that the primary objective of Title VII
was the prophylactic aim “to achieve equality of
employment opportunities and remove barriers that
have operated in the past.” Albemarle Paper Co. v.
Moody, 422 U.S. 405, 417, 95 S. Ct. 2362, 45 L. Ed. 2d
280 (1975) (quoting Griggs v. Duke Power Co., 401 U.S.
424, 429-30, 91 S. Ct. 849, 28 L. Ed. 2d 158 (1971)).
Another purpose of the statute is “to make persons
whole for injuries suffered on account of unlawful
employment discrimination.” Id. at 418. Therefore,
after finding that an employer discriminated against
an employee, a court generally has a duty to “render a
decree which will so far as possible eliminate the
discriminatory effects of the past as well as bar like
discrimination in the future.” Id. (quoting Louisiana v.
United States, 380 U.S. 145, 154, 85 S. Ct. 817, 13 L.
Ed. 2d 709 (1965)).4 Injunctive relief thus serves two
4

In Albemarle Paper Co., the Court was considering whether
backpay money damages were an appropriate remedy in addition
to injunctive relief. Because employers “would have little incentive to shun practices of dubious legality” without the prospect of
money damages, the Court found that those damages were necessary to effectuate Title VII’s prophylactic goal. 422 U.S. at 418,
421-22. Although this case conversely considers whether injunc-

49a
distinct purposes: to stop ongoing discrimination and
to prevent future discrimination.
The United States Courts of Appeals are divided as
to the correct approach — which party has the burden
of proving what — that governs a claim for injunctive
relief after a plaintiff has proven discrimination. The
Fifth and Ninth Circuits have held that, “absent
clear and convincing proof of no reasonable probability
of further noncompliance with the law[,] a grant of
injunctive relief is mandatory.” James v. Stockham
Valves & Fittings Co., 559 F.2d 310, 354 (5th Cir.
1977); accord EEOC v. Goodyear Aerospace Corp., 813
F.2d 1539, 1544 (9th Cir. 1987) (“Generally, a person
subjected to employment discrimination is entitled to
an injunction against future discrimination unless
the employer proves it is unlikely to repeat the practice.” (citations omitted)). The Second, Eighth, and
Tenth Circuits have held that “[t]here is no presumption that broad injunctive relief . . . should issue upon
a finding of intentional discrimination.” EEOC v.
Siouxland Oral Maxillofacial Surgery Assocs., LLP,
578 F.3d 921, 928 (8th Cir. 2009); accord Bridgeport
Guardians Inc. v. City of Bridgeport, 933 F.2d 1140,
1149 (2d Cir. 1991) (holding that a court has broad
power “to fashion the relief it believes appropriate”
after establishing a Title VII violation); EEOC v. Gen.
Lines, Inc., 865 F.2d 1555, 1565 (10th Cir. 1989).
The case of Spencer v. General Electric Co., 894 F.2d
651 (4th Cir. 1990), abrogated on other grounds by
Farrar v. Hobby, 506 U.S. 103, 113 S. Ct. 566, 121 L.
tive relief is necessary after a damages determination, the Court’s
focus on “the central statutory purposes of eradicating discrimination throughout the economy and making persons whole for
injuries suffered through past discrimination” still guides the
instant case. Id. at 421.

50a
Ed. 2d 494 (1992), guides the analysis of cases like
these in the Fourth Circuit. In Spencer, the plaintiff
in a sexual harassment case proved her hostile work
environment claim and was awarded nominal damages. Spencer v. Gen. Elec. Co., 703 F.Supp. 466, 469
(E.D.Va. 1989). On the plaintiff’s motion for injunctive
relief, the district court found that an injunction was
not mandatory and articulated the following governing principles:
Injunctive relief is uniquely designed to prevent illegal conduct. Such relief, however, is
not mandatory in all Title VII cases. Only
where there are lingering effects or a not
insubstantial risk of recurring violations is
such relief necessary. At the same time,
injunctive relief is not automatically precluded simply because the offending party
has ceased the illegal conduct, demonstrated
its good faith intent to comply with the law,
or even implemented an affirmative plan to
remedy past discrimination. Rather, the court
must carefully examine the circumstances of
each case, taking into account “the bona fides
of [defendant’s] expressed intent to comply,
the effectiveness of the discontinuance and,
in some cases, the character of the past
violations.” United States v. W.T. Grant, 345
U.S. 629, 633, 73 S. Ct. 894, 97 L. Ed. 1303
(1953). Before granting injunctive relief, the
court must then conclude that a “cognizable
danger of recurrent violation” exists. United
States v. Hunter, 459 F.2d 205, 210 (4th Cir.
1972) [citing W.T. Grant Co., 345 U.S. at 633].
703 F.Supp. at 469-70 (alterations in original). The
district court also emphasized the difference between

51a
cases where there was “abundant evidence of past
discrimination,” “widespread misconduct or lingering
effects,” or “a systematic pattern of harassment” and
cases like Spencer’s sexual harassment claim where
the “illegal conduct was precipitated by a single
individual within a relatively small and isolated
working group.” 703 F.Supp. at 469 nn.4, 9.
In evaluating these claims, the court also noted:
Plaintiff relies on W.T. Grant Co. for the
proposition that defendant bears a heavy
burden to defeat injunctive relief by demonstrating “there is no reasonable expectation
that the wrong will be repeated.” United
States v. W.T. Grant Co., 345 U.S. at 633.
That reliance, however, is misplaced and the
quotation taken out of context. In W.T. Grant
Co., the Supreme Court did place a heavy
burden on defendant, but only to prove that
[the] case was mooted by the cessation of the
alleged illegal activity, thereby depriving
the court of jurisdiction. Here, the issue is
not subject matter jurisdiction, but rather the
appropriate remedy after a finding of liability. Id. Once Title VII liability has been
established, it is reasonable to shift to defendant the burden to come forward with evidence
of remedial measures, as well as evidence to
show that the violations will not recur. After
all, defendant is in the best position to provide
such evidence. The ultimate burden of persuasion may equally reasonably remain with
plaintiff.
703 F.Supp. at 469 n.10. Because the defendant in
Spencer had shown “a genuine, not transitory, commitment to banning sexual harassment in the workplace”

52a
by instituting a new sexual harassment policy, the
court found that an injunction was unnecessary. 703
F.Supp. at 471, 473.
On appeal, the Fourth Circuit affirmed as to the
plaintiff’s motion for injunctive relief. Spencer, 894
F.2d at 661. It agreed that, “[a]lthough injunctions are
by no means mandatory in a Title VII case, a district
court must, of course, exercise its discretion in light
of the prophylactic purposes of the Act to ensure
that discrimination does not recur.” 894 F.2d at 660.
Like the district court, the Fourth Circuit underscored
the difference between “systematic company-wide
discrimination” and “isolated incident[s].” 894 F.2d at
661. It affirmed the district court’s determination that
“once Title VII liability was established, the onus to
produce evidence that [discrimination] will not recur
lies with the defendant[.] However, the ultimate
burden of proof that an injunction is necessary always
remains with the plaintiff.” 894 F.2d at 660 n.13.
Accordingly, the two questions from Albemarle
Paper Co. must be answered in this case: first,
whether, by placing Plaintiff in her current position at
MC 311, Defendant has provided her a reasonable
accommodation for her disability, ceased its discrimination, and “eliminate[d] the discriminatory effects
of the past;” and second, whether an injunction is
necessary to prevent further discrimination in the
future. Defendant has the burden of providing evidence both that the County has ceased discriminating against Plaintiff and that further discrimination
against Plaintiff is unlikely to recur. Plaintiff, however, bears the ultimate burden of showing entitlement to injunctive relief in light of Defendant’s
evidence.

53a
iii. Injunctive Relief for Ongoing Discrimination
In her proposed injunctive order, Plaintiff seeks
further changes to accommodate her in her current
position. Essentially, Plaintiff’s request for injunctive
relief is a claim that the County still has not provided
her with a reasonable accommodation despite her
current placement. Plaintiff suggests that the County
has provided only a “partial accommodation” and that
she continues to suffer from discrimination because
Defendant has assigned her limited duties and
provided her insufficient technological tools compared
to her CSR II peers at MC 311. (See ECF No. 316, at
6-7). To accommodate her completely, she argues, the
County must enable her to answer Tier 1 calls.
Defendant argues that [*474] no further action is
needed to accommodate Plaintiff, although the County
notes that it has contracted to implement IP 16
for Seibel, which it expects will make the system
accessible to Plaintiff, and that it intends to make
maps accessible on a yet-to-be-determined schedule.
Unlike typical ADA cases, in which plaintiffs seek
to limit the scope of their work to avoid tasks made
difficult or impossible due to their disabilities, Plaintiff is seeking to expand her job duties. Defendant,
on the other hand, is arguing that the County has
reasonably accommodated Plaintiff by putting her at
MC 311 as a CSR II answering HHS Tier 2 calls even
if her job responsibilities are limited compared to
her peers. In some instances, the parties have even
changed course from their positions during the jury
trial earlier in this case. For example, where Defendant sought at trial to show that reading maps was
an essential CSR function of which Plaintiff was
incapable, it now argues that it has accommodated her

54a
without the need for her to read maps, and therefore
it should not be ordered to make its maps accessible.
Although the parties’ roles may be unusual, the
guideposts for accommodation remain the same. To
prevent discrimination by employers, the ADA
requires that employers provide a reasonable accommodation when the disabled employee is capable of
performing the essential functions of the job with
such an accommodation. 42 U.S.C. § 12111(8); EEOC
v. Stowe-Pharr Mills, Inc., 216 F.3d 373, 377 (4th Cir.
2000). As the House Report on the matter states:
[T]he reasonable accommodation requirement is best understood as a process in which
barriers to a particular individual’s equal
employment opportunity are removed. The
accommodation process focuses on the needs
of a particular individual in relation to
problems in performance of a particular job
because of a physical or mental impairment.
...
Having identified one or more possible accommodations, the [next] step is to assess the
reasonableness of each in terms of effectiveness and equal opportunity. A reasonable
accommodation should be effective for the
employee. Factors to be considered include
the reliability of the accommodation and
whether it can be provided in a timely
manner.
. . . [A] reasonable accommodation should
provide a meaningful equal employment opportunity. Meaningful equal employment
opportunity means an opportunity to attain
the same level of performance as is available

55a
to nondisabled employees having similar
skills and abilities.
H.R. Rep. 101-485(II), as quoted in Bryant v. Better
Business Bureau of Greater Md., Inc., 923 F.Supp. 720,
736-37 (D.Md. 1996). Accordingly, “[i]n order to be
reasonable, the accommodation must be effective (i.e.,
it must address the job-related difficulties presented
by the employee’s disability), and it must allow the
employee to attain an ‘equal’ level of achievement,
opportunity, and participation that a non-disabled
individual in the same position would be able to
achieve.” Merrill v. McCarthy, 184 F.Supp.3d 221, 236
(E.D.N.C. 2016) (quoting Fleetwood v. Harford Sys.
Inc., 380 F.Supp.2d 688, 699 (D.Md. 2005)); see
also Bryant, 923 F.Supp. at 736; 29 C.F.R. pt. 1630,
app. (2014) (“The reasonable accommodation that is
required by this part should provide the individual
with a disability with an equal employment opportunity. Equal employment opportunity means an
opportunity to attain the same level of performance,
or to enjoy the same level of benefits and privileges
of employment as are available to the average similarly situated employee without a disability.”).
On the other hand, an employer “may reasonably
accommodate an employee without providing the
exact accommodation that the employee requested.”
Reyazuddin, 789 F.3d at 415. Under the ADA, reasonable accommodations may include “job restructuring,
part-time or modified work schedules, reassignment
to a vacant position, acquisition or modification of
equipment or devices, [or] appropriate adjustment or
modifications of examinations, training materials
or policies.” 42 U.S.C. § 12111. As noted above, the
employer has discretion to choose between effective
accommodations, Reyazuddin, 789 F.3d at 415-16, and

56a
a court goes too far when the effect of an injunction
“would be to give preferential treatment to people
with disabilities, rather than put them on equal
footing as intended by Congress,” Pathways Psychosocial Support Ctr., Inc. v. Town of Leonardtown, 223 F.
Supp. 2d 699, 717 (D.Md. 2002).
When this case began, Defendant had assigned
Plaintiff, in the words of the Fourth Circuit, a “cobbled
together [] assortment of ‘make-work’ tasks” that
were of questionable value to the County and failed to
fill up her day. Reyazuddin, 789 F.3d at 416. It was
these job duties that failed to constitute a reasonable
accommodation for Plaintiff because they did not provide her a meaningful equal employment opportunity.
The jury’s verdict was based on those limited duties.
Since then, Plaintiff has been transferred to MC 311
and classified as a CSR II. She is answering Tier II
HHS calls full time. None of the work she is presently
doing is “make-work.” In her current position, she
assists callers with an array of HHS requests that
would otherwise be resolved by other CSR IIs at MC
311. Her work is related to a subject matter with
which she has familiarity and the potential to
capitalize on her years of HHS experience. Although
Plaintiff and Defendant appear to be in an ongoing
effort to find the right workload for her as a CSR —
and the parties dispute her skills, training, and
progress — she no longer complains that she has
an insufficient workload. If her Tier II HHS calls were
to become insufficient, the County has in place another
accommodation, the “press four option,” to increase
her total number of calls to ensure that she can fill
her days with meaningful work that would otherwise
be done by her peers at MC 311. The issues Plaintiff
now presents are considerably different from those

57a
that were previously in front of the jury. This evidence
shows that Plaintiff is now doing meaningful work.
Plaintiff argues, however, that the work assigned to
her does not provide her with an equal employment
opportunity because the tools she is using and tasks
she is assigned differentiate her from her peers and
limit her performance. She contends that using the
IWAA sets her up to fail because she cannot easily do
“quality review” to check her work. Plaintiff also
emphasizes that the IWAA requires her to ask the
caller for name and zip code information that would
normally be transferred to the CSR II by the Tier 1
call-taker. She argues that this redundant request
requires her to take more time on each call than her
peers. Finally, Plaintiff points out that the unavailability of the Seibel system prevents her telecommuting, which at least some of her peers can do for a
variety of reasons. Defendant argues that none of
these differences prevent Plaintiff’s current role from
being a reasonable accommodation.
Although Plaintiff may not be doing the exact same
work in the exact same way as her non-disabled peers,
her current position at MC 311 does provide her with
a meaningful equal employment opportunity. The
current circumstances of this case are somewhat
similar to those in Bunn v. Khoury Enters., 753 F.3d
676, 682-83 (7th Cir. 2014), where a legally blind
employee at a Dairy Queen restaurant was assigned
exclusively to one department instead of rotating
through various departments as non-disabled employees in the same position were required to do. Although
the plaintiff sought a different accommodation, the
court found that permitting and assigning him to work
exclusively in one department where he was best able
to perform all the necessary duties was “exactly the

58a
kind of accommodation envisioned by the regulations
applicable to the ADA” when they reference “job
restructuring” or a “modified work schedule,” even if it
meant that his job was structured differently from his
peers. Id. Similarly, here, the County has restructured
Plaintiff’s CSR job to handle exclusively the calls that
she is most capable of handling with the tools that are
currently accessible.
Plaintiff largely argues that answering Tier 1 calls
is an essential function of the CSR II position and
that the County must provide an accommodation
sufficient for her to perform all essential functions of
the CSR II position in the same manner as her peers.
Neither the statute nor case law imposes such a
requirement. In Basith v. Cook County, 241 F.3d 919,
924-25 (7th Cir. 2001), for example, the plaintiff’s
employer restructured his job as a Pharmacy Technician II to eliminate delivery, stocking, and cleaning
duties when an injury left him unable to do much
walking or lifting. Although the court had found that
delivery and stocking of medications were essential
functions of his job, id. at 927, it held that the
employer had provided a reasonable accommodation
when it “went above and beyond the requirements of
the ADA” by reallocating these essential functions to
other employees, id. at 932; cf. Feist v. Louisiana, 730
F.3d 450, 453-54 (5th Cir. 2013) (emphasizing that “a
modification that enables an individual to perform
the essential functions of a position is only one of three
categories of reasonable accommodation,” along with
modifications that enable an applicant to be considered for a desired position or modifications that
enable a disabled employee “to enjoy equal benefits
and privileges of employment” (citing 29 C.F.R.
§ 1630.2(o)(1))); EEOC v. Life Techs. Corp., No. WMN09-2569, 2010 U.S. Dist. LEXIS 117563, 2010 WL

59a
4449365, at *5 (D.Md. Nov. 4, 2010) (noting in a different context that, although “the regulation certainly
indicates that some reasonable accommodations are
for the purpose of enabling an individual to perform
the essential functions of a job, nothing in its language
indicates that all reasonable accommodations must
be for that purpose”); Interpretive Guidance, 29 C.F.R.
§ 1630 app. (2016) (explaining that restructuring
essential functions to enable an individual to perform a job is one type of modification that might be
required in a “supported employment” position and
noting that “it would not be a violation of [the reasonable accommodation requirement] for an employer
to provide any [such] personal modifications or adjustments”). This view is also supported by the ADA’s
inclusion of reassignment to a vacant position, which
would inherently change the essential functions of
the job held, as a reasonable accommodation, so long
as the employee is able to perform the essential
functions of the new position and the position is equivalent to the employee’s previous one. Interpretive
Guidance, 29 C.F.R. § 1630 app. (2016).
The evidence here does not show that using the
IWAA and answering only Tier 2 HHS calls prevents
Plaintiff from attaining the same level of performance
as her peers. The queue of calls Plaintiff receives
has no bearing on her salary, job benefits, union
status, or any other privileges of her employment, with
the possible exception of the opportunity to telework.
Telecommuting, however, is permitted only in limited
circumstances and at the discretion of a supervisor,
not as of right. Plaintiff is also capable of doing quality
review of her service requests and figuring out her
AUX code status, just under different circumstances
than her peers. As described in the job classification,
the role of a CSR II focuses almost entirely on general

60a
skills related to helping callers: identifying problems,
researching written materials, providing information
to the customer, and submitting service requests.
(DTX 7). It makes no reference to the specific types of
calls a CSR II will answer. (Id.). Although all other
CSRs are able to answer Tier 1 calls, all CSR IIs are
limited to taking only the Tier II calls for the systems
on which they are trained; thus, not all CSR IIs need
to answer the same types of calls in order to attain the
same level of performance.
The same analysis applies to Plaintiff’s promotional
opportunities. Plaintiff has not presented any evidence that her lack of familiarity with Seibel’s internal
portal will detract from her future opportunities if
she shows a strong ability to assist callers and the
interpersonal skills necessary to train new CSRs,
manage employees, and handle difficult calls. To the
contrary, the testimony of Robert Sinkler and other
managers indicated that it is common for MC 311
supervisors to be unfamiliar with the Tier 2 calls from
queues in which they did not work, yet these employees are still eligible to be promoted to supervise CSR
IIs who take such calls.
In sum, the differences between Plaintiff working as
a CSR II using the IWAA to answer only Tier 2 HHS
calls and her Seibel-using peers are within the range
of modifications “to the manner or circumstances
under which the position . . . is customarily performed”
that regulations permit as part of a reasonable
accommodation. 29 C.F.R. § 1630.2(o)(1)(ii). Plaintiff’s
current role allows her to attain an equal level of
achievement, opportunity, and participation as her
CSR II peers. The County has provided her a reasonable accommodation, and, accordingly, its discrimina-

61a
tory conduct has ceased. Therefore, an injunction is
not warranted as to Plaintiff’s current position.5
iv. Prohibitory Injunction
Even where an employer has stopped discriminating against an employee, “the court’s power to grant
injunctive relief survives discontinuance of the illegal
conduct.” W.T. Grant Co., 345 U.S. at 633; accord
Reiter v. MTA N.Y. City Transit Auth., 457 F.3d 224,
230 (2d Cir. 2006). As discussed above, “the court must
carefully examine . . . ‘the bona fides of [defendant’s]
expressed intent to comply, the effectiveness of the
discontinuance and . . . the character of the past
violations.’“ Spencer, 703 F.Supp. at 469-70 (quoting
W.T. Grant, 345 U.S. at 633) (alterations in original).
Plaintiff argues that a prohibitory injunction is
necessary to prevent Defendant from letting its current accessibility lapse and returning to its former
discriminatory practices. She argues that despite
Defendant’s ongoing efforts to accomplish Seibel
accessibility through IP 16, the County has made
such strides for accessibility reluctantly and only as a
result of this litigation. It should not be trusted,
Plaintiff maintains, to continue its accessibility efforts
or to make such efforts a timely priority in the absence

5

At the hearing, the parties also presented testimony and
exhibits related to the CLB job offer. The evidence showed that
the CLB position would have been isolated from other County
employees and was created and offered in a manner that deviated
significantly from normal County or CLB practices. It therefore
seems doubtful that such a position would have provided Plaintiff
with a reasonable accommodation. Because Plaintiff’s current
position satisfies the ADA requirements, however, there is no
need for injunctive or declaratory relief based on a failure to
accommodate related to the CLB offer.

62a
of a court order. In her motion papers, Plaintiff suggests that, rather than “acknowledging its failings,
Montgomery County is still conducting a battle to
hold onto what it regards as its management rights
to do anything it wants.” (ECF No. 316, at 12).
6

In Spencer, the Fourth Circuit refused to adopt
the rule “that remedial measures undertaken by a
defendant after the instigation of litigation will never
be adequate to obviate injunctive relief” because
doing so would “undercut the remedial goals of Title
VII . . . by removing any incentive for an employer,
once sued, to clean its own house.” 894 F.2d at 660-61.
Moreover, the County has never contended that it
need not accommodate Plaintiff. Defendant and Plaintiff have disputed what constitutes a reasonable
accommodation, and Defendant has continued to
maintain, as the law makes clear, that an employer
6

In her motion papers, Plaintiff does not distinguish between
the analysis of mootness in this case and her entitlement to a
prohibitory injunction. Put another way, Plaintiff contends that
because her transfer did not moot the case, Defendant should be
enjoined from transferring Plaintiff back out of MC 311 or taking
actions that negate the accessibility measures it has undertaken
to allow her to work as a CSR II. Without citing to any cases
equating these two analyses, Plaintiff states that “[w]hat is
appropriate for a mootness analysis is equally applicable to the
question of whether injunctive relief is appropriate.” (ECF No.
295-1, at 10). She is incorrect. The mootness analysis determines
whether a court has jurisdiction to hear a case. The existence of
a live controversy is not enough to entitle Plaintiff to relief. Thus,
where voluntary cessation might prevent a court from mooting a
case when a defendant is capable of reverting back to past practices, to warrant injunctive relief, Plaintiff must show, not that
Defendant is capable of reverting back to past discriminatory
practices, but some likelihood of recurrence. See Spencer, 703
F.Supp. at 469 (“Only where there are lingering effects or a not
insubstantial risk of recurring violations is such relief necessary.”).

63a
has discretion to choose among effective accommodations. These arguments are a far cry, however, from
the notion that the County may “do anything it
wants.” Defendant has offered Plaintiff two positions
different from what it originally “wanted” to provide.
Nor has the County been slow to provide the accommodations it believed were necessary. Rather, in both
instances, Defendant offered Plaintiff a new position
before it was necessary and while it was still litigating the sufficiency of its earlier accommodation efforts:
before the jury found that Plaintiff’s ADS positions
were inadequate, the County helped create a new
position that it thought would appeal to Plaintiff at
the CLB, and while the parties were litigating the
adequacy of the CLB position, Defendant transferred
Plaintiff to MC 311. Defendant has also made continued efforts to improve the effectiveness of Plaintiff’s
placement at MC 311. The County has dedicated
extensive time and personnel to training Plaintiff on
the skills she needs for her position. After encountering issues with the CAPTCHA robot-prevention software, it created the IWAA, a specialized portal for
Plaintiff.
All of these steps indicate a bona fide intent to abide
by the law. Defendant’s past actions do not suggest
an unwillingness to provide a reasonable accommodation, but rather a repeated failure to identify one
that works for both Plaintiff and the County. Defendant did not fail to recognize that an accommodation
was required. Rather, it failed to provide an accommodation that met the requirements of the ADA.
There are no other reasons to conclude that a
prohibitory injunction is necessary. The “character of
the past violation” is delimited; the violation was
isolated in the sense that it was caused by the one-time

64a
reorganization of the call center functions. Other
evidence Defendant put forth at the evidentiary
hearing indicates that it has now invested significant
training toward helping Plaintiff succeed in her new
role, despite numerous issues. Defendant also has a
contract in place to implement IP 16 and has indicated
that it expects this upgrade to fix the accessibility
issues that have prevented Plaintiff from using
Seibel’s internal portal. Thus, the County appears
inclined to continue to implement further accessibility
features.
Plaintiff’s contention that Defendant might fail to
maintain the accessibility of the systems she is presently using seems improbable. Some of the accessibility features result from software advances that serve
multiple purposes. The costs and resources necessary
to maintain accessibility of the systems currently in
place would likely be minimal compared to the staff
time and resources that the County has already
invested in making the CSR II position accessible to
Plaintiff. Additionally, if Defendant failed to maintain
the accessibility of the CARES system or the IWAA,
Plaintiff would not be able to help any customers at
all. The County has never suggested that paying
Plaintiff to do nothing at all would be appropriate.
The County has discontinued its discrimination,
which was only the failure to identify and implement
a reasonable accommodation. Considering all of
these circumstances, a prohibitory injunction is not
warranted.
b. Declaratory Judgment
Plaintiff also seeks a declaration, based on the jury
verdict, that Defendant violated her rights under the
ADA. The Fourth Circuit has explained that:

65a
While § 2000e—5(g)(2)(B)(i) places the power
to award declaratory relief in the district
courts’ discretion, “such discretionary choices
are not left to a court’s inclination, but to its
judgment; and its judgment is to be guided by
sound legal principles.” Albemarle Paper Co.,
422 U.S. at 416 (internal quotation marks
omitted).
Pitrolo v. Cty. of Buncombe, N.C., 589 F.App’x 619, 627
(4th Cir. 2014). The court further explained that:
“We have . . . enumerated several factors to
guide district courts in their exercise of this
discretion.” Aetna Cas. & Sur. Co. v. Ind-Com
Elec. Co., 139 F.3d 419, 421-22 (4th Cir.
1998) (per curiam) (internal quotation marks
omitted). In Aetna, we held that, when deciding whether to grant declaratory relief pursuant to the Declaratory Judgment Act, 28
U.S.C. § 2201, a district court should consider
several factors. See Aetna, 139 F.3d at 422-24.
Among those factors relevant to this case
are whether awarding declaratory relief (1)
will clarify important issues of law in which
the forum state has an interest; (2) will
“clarify the legal relations between the parties” or afford “relief from uncertainty, insecurity, and controversy giving rise to the proceeding”; and (3) “whether the declaratory
judgment action is being used merely as a
device for procedural fencing.” Id. (internal
quotation marks omitted); see also Am. Cas.
Co. of Reading, Pa. v. Howard, 173 F.2d 924,
927 (4th Cir. 1949) (“We think [judicial discretion whether to grant declaratory relief]
should be liberally exercised to effectuate the

66a
purposes of the [Declaratory Judgment Act]
and thereby afford relief from uncertainty
and insecurity with respect to rights, status
and other legal relations.”); [] Edwin Bouchard,
Declaratory Judgments 299 (2d ed. 1941) (“The
two principal criteria guiding the policy in
favor of rendering declaratory judgments are
(1) when the judgment will serve a useful
purpose in clarifying . . . the legal relations
at issue and (2) when it will . . . afford relief
from the uncertainty, insecurity, and controversy giving rise to the proceeding.”).
Pitrolo, 589 F.App’x at 627-28.
In her motion papers, Plaintiff contends that a
declaration from the court “will afford relief to both
parties about the uncertainty, insecurity, and controversy that gives rise to this case.” (ECF No. 316, at 14).
A declaration is warranted, she argues, because “the
parties have strong disagreements about the way in
which their future relations should be organized.”
(Id.). Plaintiff contends that Pathways Psychosocial
Support Ctr., Inc. v. Town of Leonardtown, 223 F.
Supp. 2d 699, 718 (D.Md. 2002), demonstrates that a
court may enter a declaratory judgment even after a
jury determination of the same issue on the merits.
In that zoning and land use case, the court issued a
declaratory judgment because it was “not in a position
to determine whether Pathways’ current use [was]
different from that use [upon which the jury determination relied].” Id. at 717. The court issued a
declaration stating that, if the plaintiff’s ongoing use
was the same, the jury’s verdict continued to control.
In the instant situation, there is no such confusion.
The jury made clear that Defendant’s earlier accommodation was insufficient. The County has now

67a
provided Plaintiff with an entirely new accommodation that is compliant with the ADA. Further expounding on the jury’s verdict would be superfluous and
have no bearing on the current legal issues. Moreover,
by addressing Plaintiff’s claims for injunctive relief,
the court has removed any uncertainty, insecurity,
and controversy over Defendant’s future obligations as
Plaintiff’s employer. Accordingly, declaratory relief is
not appropriate here.
V. Conclusion
For the foregoing reasons, judgment will be entered
in favor of Defendant Montgomery County, Maryland
on Plaintiff Yasmin Reyazuddin’s requests for injunctive and declaratory relief. A separate order will
follow.
/s/ DEBORAH K. CHASANOW
United States District Judge

68a
APPENDIX G
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND
[Filed August 21, 2017]
————
Civil Action No. DKC 11-0951
————
YASMIN REYAZUDDIN
v.
MONTGOMERY COUNTY, MARYLAND
————
ORDER OF JUDGMENT
In April 2011, Plaintiff Yasmin Reyazuddin filed a
single-count complaint against Defendant Montgomery
County, alleging disparate treatment and a failure
to provide a reasonable accommodation in violation of
the Rehabilitation Act of 1973, 29 U.S.C. § 794. (ECF
No. 1). She supplemented her complaint in October
2012 to include a claim under the Americans with
Disabilities Act, 42 U.S.C. § 12101, et seq. (ECF No.
58). The court granted judgment in Defendant’s favor
on both Plaintiff’s claims, but the United States Court
of Appeals for the Fourth Circuit reversed as to
Plaintiff’s claims under the Rehabilitation Act. (ECF
Nos. 108; 113). The parties proceeded to a jury trial on
Plaintiffs Rehabilitation Act claims in February 2016.
In the joint pretrial order, Plaintiff stipulated that
she was seeking: (1) compensatory damages for emotional distress; (2) injunctive relief; and (3) attorneys’
fees. (ECF No. 157, at 19). The jury returned verdicts
in favor of Plaintiff on both counts. (ECF No. 221). The

69a
jury found, however, that she had sustained zero
dollars in damages.
Plaintiff then proceeded to pursue equitable relief
on her claims, seeking a declaration that Defendant
had discriminated against her and an injunctive
order requiring Defendant to make the job she sought
accessible to her and to place Plaintiff in that job,
consistent with the position she would have been in
had the discrimination not occurred. (ECF No. 228, at
7). The court scheduled a hearing on these issues, and
Plaintiff filed a motion for a permanent injunction and
declaratory judgment. (ECF Nos. 266; 295). Additionally, Plaintiff and Defendant each filed dispositive
motions prior to the hearing. (ECF Nos. 296; 300). For
the reasons stated in the foregoing Memorandum
Opinion, Plaintiff is not entitled to injunctive relief or
declaratory judgment.
Accordingly, it is this 21st day of August, 2017, by
the United States District Court for the District of
Maryland, ORDERED that:
1. Plaintiff’s motion for partial summary judgment
(ECF No. 296) and Defendant’s motion to dismiss for
lack of jurisdiction or for summary judgment (ECF No.
300), BE and the same hereby ARE, DENIED;
2. Plaintiff’s motion for declaratory and injunctive
relief (ECF No. 295) BE, and the same hereby IS,
DENIED;
3. All other motions, to the extent not ruled on
earlier (ECF Nos. 275, 276, 277, 292, 293, 294, 301,
303, and 305), BE and the same hereby ARE, DENIED
as moot;
4. JUDGMENT BE, and the same hereby IS,
ENTERED in favor of Yasmin Reyazuddin and

70a
against Montgomery County for her claims under
Section 504 of the Rehabilitation Act of 1973, in the
amount of $0.00 in compensatory damages;
5. All prior rulings are incorporated herein and
this judgment is final within the meaning of
Fed.R.Civ.P. 58; and
6. The clerk is directed to transmit copies of this
Judgment Order to counsel for the parties.
/s/ DEBORAH K. CHASANOW
United States District Judge

71a
APPENDIX H
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
[Filed March 29, 2021]
————
No. 19-2144
(8:11-cv-00951-DKC)
————
YASMIN REYAZUDDIN
v.

Plaintiff-Appellant

MONTGOMERY COUNTY, MARYLAND
Defendant-Appellee
THE DISABILITY LAW CENTER OF VIRGINIA;
DISABILITY RIGHTS MARYLAND; DISABILITY RIGHTS
OF WEST VIRGINIA; PROTECTION AND ADVOCACY FOR
PEOPLE WITH DISABILITIES, INC. OF SOUTH CAROLINA;
DISABILITY RIGHTS NORTH CAROLINA
Amici Supporting Appellant
INTERNATIONAL MUNICIPAL LAWYERS ASSOCIATION,
Amicus Supporting Appellee
————
ORDER
The petition for rehearing en banc was circulated to
the full court. No judge requested a poll under Fed. R.
App. P. 35. The court denies the petition for rehearing
en banc.
For the Court
/s/ Patricia S. Connor, Clerk

72a
APPENDIX I
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND
[Filed: February 26, 2016]
————
Civil Action No. DKC 11-00951
————
YASMIN REYAZUDDIN
Plaintiff
v.
MONTGOMERY COUNTY, MARYLAND
Defendant
————
VERDICT SHEET
Preliminary Issues
1. Do you find by a preponderance of the evidence that
Plaintiff is an individual with a disability?
Yes



No

2. Do you find by a preponderance of the evidence
that the Defendant had notice of her disability?
Yes



No

If your answer to Question No. 1 or 2 is “no,” stop
here and go no further.

73a
3. Do you find by a preponderance of the evidence
that Plaintiff could perform the essential functions
of a Customer Service Representative with a
reasonable accommodation?
Yes



No

If your answer to Question No. 3 is “no,” stop here
and go no further.
First Claim: Reasonable Accommodation
4. A. Do you find by a preponderance of the evidence
that Montgomery County failed to provide a reasonable accommodation to Plaintiff in the Customer Service Center?
Yes



No

B. Do you find by a preponderance of the evidence
that Montgomery County failed to provide a reasonable accommodation to Plaintiff outside the
Customer Service Center?
Yes



No

Second Claim: Disparate Treatment
5. Do you find by a preponderance of the evidence
that the failure to transfer Plaintiff to the Customer Service Center was an adverse employment
action?
Yes



No

If your answers to Question Nos. 4 A and B AND 5
are “no”, stop here and go no further.

74a
Affirmative Defense: Undue Hardship
6. Do you find by a preponderance of the evidence
that it would have been an undue hardship to
Montgomery County to make the Customer Service
Center accessible for Plaintiff?
Yes

No



Regardless of your answer to Question No. 6, go on
to Question no. 7.
Damages
7. What amount of non-economic damages, if any. did
Plaintiff prove she sustained? .
$

0
SIGNATURE REDACTED

DATE: Feb. 26, 2016

